<html>
<title> - CONFLICT WITH IRAQ: AN ISRAELI PERSPECTIVE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





               CONFLICT WITH IRAQ: AN ISRAELI PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2002

                               __________

                           Serial No. 107-139

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



83-514              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2002...............................     1
Statement of:
    Netanyahu, Benjamin, former Prime Minister of Israel.........    39
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     3
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    12
    McHugh, Hon. John M., a Representative in Congress from the 
      State of New York, backgrounder entitled, ``A Decade of 
      Deception and Defiance''...................................    18
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9

 
               CONFLICT WITH IRAQ: AN ISRAELI PERSPECTIVE

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Barr, Morella, Shays, 
McHugh, Horn, Mica, Tom Davis of Virginia, LaTourette, Lewis, 
Platts, Weldon, Cannon, Waxman, Lantos, Norton, Kucinich, Davis 
of Illinois, Tierney, Turner, Clay, and Watson.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Chad Bungard, Pablo Carrillo, and Jennifer Hall, counsels; S. 
Elizabeth Clay and Caroline Katzin, professional staff members; 
Blain Rethmeier, communications director; Allyson Blandford, 
assistant to chief counsel; Robert A. Briggs, chief clerk; 
Robin Butler, office manager; Joshua E. Gillespie, deputy chief 
clerk; Nicholis Mutton, deputy communications director; Corinne 
Zaccagnini, systems administrator; Phil Barnett, minority chief 
counsel; David Rapallo, minority counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. Good afternoon. A quorum being present, the 
Committee on Government Reform will come to order. I ask 
unanimous consent that all Members' and witnesses' written and 
opening statement be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record.
    Without objection, so ordered.
    Today we are privileged to have former Prime Minister 
Benjamin Netanyahu, one of the leading experts on the Middle 
East, here to testify and we really appreciate his being here.
    I have an opening statement I would like to make but I am 
going to submit it for the record and just make a couple of 
brief comments.
    President Bush appeared before the United Nations today and 
I think he made a very strong case for holding Saddam Hussein 
accountable for his actions and inactions.
    The President stated--and I think most of my colleagues and 
I saw this speech--the President stated in no uncertain terms 
that almost every one of the U.N. resolutions that had been 
agreed to by Saddam Hussein has been violated by him. I won't 
enumerate all of them, but I think the President made a very, 
very strong case.
    I know there is a lot of concern about the problems in the 
Middle East and Iraq and whether or not we should take military 
action to eliminate the threat by Saddam Hussein. And so today 
I hope that listening to one of the foremost experts on the 
Middle East, Benjamin Netanyahu, we will be able to have a lot 
of those questions answered.
    I have had the privilege of meeting with Benjamin Netanyahu 
on a number of times, a number of occasions, and heard him 
speak on issues concerning the Middle East and in particular 
Iraq, and I am convinced he is one of the most knowledgeable 
people on this issue that I have had the pleasure to talk to. 
And with that, I want to welcome Mr. Netanyahu.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T3514.001
    
    [GRAPHIC] [TIFF OMITTED] T3514.002
    
    Mr. Burton. I will now yield to Mr. Kucinich who is going 
to make an opening statement on behalf of Mr. Waxman.
    Mr. Kucinich. Actually, Mr. Chairman, I am making this 
statement on my behalf. Mr. Waxman, I think, will have a 
statement which his staff will submit for the record.
    Mr. Burton. Without objection, we will put it in the 
record.
    Mr. Kucinich. Thank you. I appreciate the Prime Minister's 
presence here today and his willingness to speak to our 
committee. It seems to me, and to many others, that one of the 
largest threats that Israel faces is terrorism. Israelis have 
repeatedly been victims of the tactics of terrorism and 
intimidation. A year ago the United States truly felt the brunt 
of this tactic, but our Nation has shown determination in 
bringing to justice those responsible for this attack. And as 
Prime Minister Netanyahu stated last year to this very 
committee on September 20, 2001, at a meeting I was pleased to 
attend: There are many terrorist militants all over the region 
that continue to operate terrorist missions to attack the 
United States, Israel, and other nations.
    For the past few months, the rationale for linking Iraq and 
Saddam Hussein was supposed to link to terrorist attacks 
against the United States. Iraq at this moment to the best of 
our knowledge does not harbor terrorists who threaten the 
United States. The U.S. administration recently admitted, after 
months and months of talk, that there is no evidence of Iraq 
being tied to September 11th. So one of the questions I hope 
that we can get to today is why is the Iraq threat more severe 
now than ever before?
    One of the questions that has been raised is exactly what 
are the military capabilities of Iraq. Yesterday's Washington 
Post noted that senior intelligence officials did not have an 
up-to-date assessment of Iraq's nuclear, chemical, and 
biological weapons capacities. The administration so far has 
not presented credible evidence of a threat to the American 
people, or this Congress.
    I wonder if Prime Minister Netanyahu will be able to 
present us with tangible evidence of Iraq's present nuclear, 
biological, and chemical weapons capabilities.
    Now, I believe that our Nation should work with Israel to 
focus efforts to bring about a solution to the crisis in the 
Middle East between Israel and the Palestinians. I think the 
United States is in a role to serve as an honest broker in 
working with both parties to bring about a resolution of that 
very tragic condition.
    Diplomatic efforts, I believe, have not been fully examined 
in the case of Iraq. And while Iraq is in defiance of certain 
U.N. orders, no one can seem to prove to this point that Iraq 
poses an imminent threat to this country or to any other 
Nation.
    If the real worry is that Iraq is seeking weapons of mass 
destruction and may in the future plan to use them against its 
neighbors and the United States, then it would follow that 
inspections need to resume. Inspections have been proven to be 
effective in the elimination of Iraq's weapons. This is called 
preventive diplomacy, not preventive war. Israel, I believe, 
would benefit considerably from a commencement in the United-
Nations-led inspections in Iraq. If the threat that the United 
States and Israel faces is the capability of Iraq to deliver 
weapons of mass destruction, if they have them and the ability 
to deliver, we should of course eliminate those weapons; find 
them and dismantle them.
    But I would hope that as we proceed with the considerable 
intelligence of Mr. Netanyahu, that we not lose an opportunity 
to make still one more effort in trying to resolve our 
conditions of dispute with Iraq through the international 
community without the United States taking unilateral action 
and with an intention that we might be able to resolve this 
without resorting to war.
    I thank Mr. Netanyahu for being here and I look forward to 
his testimony.
    Mr. Burton. Are there other Members that wish to make an 
opening statement? Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. As you set the example, 
I will submit a written statement in more detail. But I also 
want to thank the Prime Minister for being here today.
    I also want to draw attention to the President's speech 
today which included very important elements in the war against 
terrorism. I think the President did a masterful job of laying 
out a sound basis for any number of options in the interest 
both of the United States and the world against terrorism and 
despotism. I think the President's message left the United 
States in a very solid position to exercise perhaps one of the 
most important tools in the fight against terrorism, and that 
is flexibility; not to tie oneself down to outside factors, but 
to always remain focused on maintaining maximum number of 
options with which to deal with terrorism, which itself 
maintains by its definition tremendous flexibility.
    So I want to take this opportunity to commend President 
Bush for a masterful job of laying out the case for military 
action should it become necessary, but at the same time leaving 
options open and, at least by his actions today before the 
United Nations, preventing anyone from raising legitimate 
concerns or criticisms of the President for not making every 
effort to secure the backing of international organizations and 
our allies.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you Mr. Barr.
    Mr. Waxman.
    Mr. Waxman. I thank you, Mr. Chairman. I want to welcome 
our witness, former Israeli Prime Minister Benjamin Netanyahu, 
to our hearing. It is good to see you again. The last time we 
met was in this room on September 20, 2001, right after the 
horrible terrorist attacks of September 11th. At that time, 
Prime Minister Netanyahu conveyed the grief, empathy, and the 
solidarity of the entire world when he said, ``Today we are all 
Americans.'' And he spoke with great force and eloquence about 
the need to confront terrorism.
    Now we are considering a different question: whether the 
United States should take military action against Iraq. This 
question is not an easy one and it raises complex issues to 
which Congress has not yet received answers. Should the United 
States push for the return of the international inspectors? 
Should we seek from the Security Council a resolution 
authorizing the use of force? What effects will a war on Iraq 
have on the war against terrorism, and what is the plan for 
Iraq after hostilities end?
    The Nation and the world were united in pursuing al Qaeda, 
but this consensus is lacking on Iraq. There are significant 
differences of opinion in the international community. There 
are differences of opinion within the United States. There are 
even differences of opinion within the Bush administration 
itself.
    It is appropriate for us to give special attention to the 
implications for Israel of war against Iraq. As the Gulf war 
demonstrated, Israel will most likely be the first target of an 
Iraqi regime bent on retaliation. Iraq fired over 40 Scud 
missiles at Israel during the Gulf war, causing severe damage, 
casualties, and deaths. Throughout that conflict, Israeli 
citizens lived under the daily threat of chemical and 
biological warfare. Israelis will face similar risks and 
challenges if there is another war against Iraq.
    But while the topic of this hearing is important, I regret 
that the minority was not consulted in advance about witnesses 
for today's hearing. This hearing is entitled: ``Conflict with 
Iraq: An Israeli Perspective.'' Yet to the best of my knowledge 
the chairman did not send invitations to a single member of the 
current Israeli Government. Moreover, the chairman did not 
agree to invite other experts in Israeli foreign policy until 
yesterday, which was not sufficient notice to allow other 
witnesses to attend.
    Although Mr. Netanyahu was indeed Prime Minister of Israel 
and is respected widely for his expertise, I am sure he would 
agree that he represents his point of view and maybe a point of 
view that is widespread, but it is one point of view, and there 
are other witnesses as well that we should have before this 
committee.
    I wrote to Chairman Burton on Monday, asking him to invite 
administration witnesses so that we could find out how the Bush 
administration plans on working with Israel and our allies in 
the region, but we have no witnesses from the administration.
    We also do not have witnesses who can testify about the 
implications of military action in Iraq on other countries in 
the Middle East.
    Military confrontation with Iraq may well be necessary, but 
it is a decision fraught with consequences for the United 
States, the Mideast, and the rest of the world. We need to hear 
the broadest possible spectrum of views so that we can make as 
informed a decision as possible about this vital issue.
    Thank you, Mr. Chairman.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I will submit my 
full statement for the record, but I just wanted to welcome 
Prime Minister Netanyahu and point out what we all know, and 
that is today's hearing is a topic of central importance both 
to the American people and to the world. And it is necessary, I 
believe, that Congress debate the merits of an invasion of 
Iraq, learn the perspective of our allies, determine whether an 
imminent attack is the wisest course of action. And I do indeed 
have serious reservations about an attack, but I look forward 
to hearing from Prime Minister Netanyahu, particularly in 
regards to the ramifications for Israel.
If we do not attack, what may happen to Israel? If we do 
attack, what may happen to Israel?
    And I yield back. Thank you.
    Mr. Burton. Thank you Mrs. Morella.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T3514.028

[GRAPHIC] [TIFF OMITTED] T3514.029

    Mr. Burton. Mr. Clay.
    Mr. Clay. Thank you for yielding, Mr. Chairman. I too will 
deliver an abbreviated opening statement and submit its 
entirety to the record.
    I too would like to welcome our distinguished guest, former 
Prime Minister Netanyahu, to this panel. I certainly appreciate 
having your perspective on this highly contentious issue, the 
conflict with Iraq.
    This issue has spawned many different points of view. There 
is, however, a consensus that exists between our two countries. 
We both believe without question that Saddam Hussein must be 
removed. Saddam's continued existence in the region serves to 
further aggravate an opportunity for real peace and cooperation 
between Israel and its Arab neighbors.
    I realize that for the present moment, many questions still 
remain unanswered. Prime Minister Netanyahu, I am very 
interested to learn your opinion on how a new Iraqi regime 
might be different from the one that is currently in place. 
Additionally, I am interested in knowing your thoughts about 
the impact of regional destabilization and the potential loss 
of additional American and Israeli lives.
    And, Mr. Chairman, I ask unanimous consent to submit my 
statement into the record.
    Mr. Burton. Mr. Clay, without objection, so ordered.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T3514.003
    
    [GRAPHIC] [TIFF OMITTED] T3514.004
    
    [GRAPHIC] [TIFF OMITTED] T3514.005
    
    [GRAPHIC] [TIFF OMITTED] T3514.006
    
    Mr. Burton. Are there further statements? Mr. Mica. It is 
nice to see you, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. It is always good to be 
with you. And welcome, former Prime Minister Netanyahu.
    Just a very brief statement that while I welcome the Prime 
Minister's advice and counsel, I think that we all need to 
remember that it is the responsibility under the Constitution 
of the United States for the President of the United States to 
make a decision in our national security.
    Now, I know war does require some advice and consent of the 
Congress, but we have to remember what we are dealing with 
here: someone who has gassed his own population; someone that a 
little over a decade ago lobbed missiles into Israel, killing 
people. And at that time, he did not have the technology that 
he may have today. And whether it is delivered by a missile or 
some other means, we have seen that his goal is to destroy not 
only Israelis but destroy world peace and the United States in 
the process.
    So I think it is time that we get a little starch in our 
spines and realize the threat that we face, that we back the 
President of the United States. It is nice to have this 
discussion, but only he is provided with the intelligence and 
the information on proceeding, and he should make that decision 
and we should support that decision.
    At Memorial Day, I visited Europe and followed the 
President through the graves at Normandy and visited other of 
our cemeteries. The landscape of Europe is littered with the 
American dead who have gone in to bail out our weak-kneed 
allies who have slept while there have been holocausts, who 
have delayed taking action when others have been slaughtered. 
And I don't think this is the time--we know the terrorists were 
not interested in killing 2,800 in the World Trade Center. They 
wanted to kill 28,000 in each tower.
    And, again, it is nice to have this debate, this 
discussion, but I think we need to back the President of the 
United States, and I would strongly support his action based on 
what we now know to go after Saddam Hussein.
    Thank you, and I yield back.
    Mr. Burton. Thank you, Mr. Mica.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I simply want to 
welcome the Prime Minister to this committee. You have been 
here before. I had the opportunity to visit with you in 
Jerusalem shortly after you assumed the position of Prime 
Minister. We welcome your input and your counsel, and I admire 
you greatly for your advocacy of democracy which I have heard 
you speak of on many occasions. So thank you for being with us.
    Mr. Burton. Thank you, Mr. Turner. Since that was so short, 
we will go to Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I will forgo my 
remarks and just welcome the witness here, and thank him for 
his time and his perspective on that. I suspect that these 
hearings will be broadened out and we will hear other 
perspectives also that we will all benefit from. Thank you.
    Mr. Burton. Thank you Mr. Tierney.
    Any other comments on our side?
    Mr. McHugh. I apologize, Mr. Chairman. I was not going to 
make a statement, and I will still try to be brief. I certainly 
want to add my words of welcome to the former Prime Minister. 
As I hope you can tell, sir, you have many admirers, amongst 
whom I count myself, and many, many admirers as well for the 
great spirit and the great determination of the Israeli people.
    As you have also probably heard, we have some disagreements 
on some of the particulars that lie behind this issue, while we 
are particularly interested in hearing your comments and your 
very unique perspective and expertise. And I am just going to 
make a simple request of my colleagues. All of us who have the 
honor of serving here, of course, are very busy, but I have 
heard some remarks here today about what we do and what we do 
not know about what are allegations and what are not.
    I had an opportunity this morning to go to a meeting with 
some other members where we were given a document that I see is 
amongst those in our briefing booklets here today. And it is 
the backgrounder that the administration put out: ``A Decade of 
Deception and Defiance'' that I think every Member, as we face 
this weighty issue, would serve themselves and their Nation 
well by reviewing very carefully; because as you look through 
it, it details not based on supposition, not based on 
unconfirmed intelligence reports, not based upon opinion, but 
based upon a very clear record of deception, very clear record 
of the kinds of capabilities that we know for a fact, confirmed 
by the United Nations, that Saddam Hussein has developed. It 
confirms the enormous amounts of armaments, of chemical 
weapons, and precursors that are unaccounted for, and that any 
reasonable person would have to assume are still in existence.
    You can draw your own determinations from that, my 
colleagues, but I think that as we deliberate on this issue, 
the facts are probably the most persuasive argument and the 
facts are established. I think we should all do our best to 
familiarize ourselves with them. So I would just make that 
respectful--I hope respectful--suggestion to all of us, myself 
included. And again Mr. Prime Minister, welcome.
    Mr. Mica. Will the gentleman yield?
    Mr. McHugh. I am happy to.
    Mr. Mica. I ask unanimous consent that this document be 
made part of the record. I think that is very important. I 
thank the gentleman.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3514.007
    
    [GRAPHIC] [TIFF OMITTED] T3514.008
    
    [GRAPHIC] [TIFF OMITTED] T3514.009
    
    [GRAPHIC] [TIFF OMITTED] T3514.010
    
    [GRAPHIC] [TIFF OMITTED] T3514.011
    
    [GRAPHIC] [TIFF OMITTED] T3514.012
    
    [GRAPHIC] [TIFF OMITTED] T3514.013
    
    [GRAPHIC] [TIFF OMITTED] T3514.014
    
    [GRAPHIC] [TIFF OMITTED] T3514.015
    
    [GRAPHIC] [TIFF OMITTED] T3514.016
    
    [GRAPHIC] [TIFF OMITTED] T3514.017
    
    [GRAPHIC] [TIFF OMITTED] T3514.018
    
    [GRAPHIC] [TIFF OMITTED] T3514.019
    
    [GRAPHIC] [TIFF OMITTED] T3514.020
    
    [GRAPHIC] [TIFF OMITTED] T3514.021
    
    [GRAPHIC] [TIFF OMITTED] T3514.022
    
    [GRAPHIC] [TIFF OMITTED] T3514.023
    
    [GRAPHIC] [TIFF OMITTED] T3514.024
    
    [GRAPHIC] [TIFF OMITTED] T3514.025
    
    [GRAPHIC] [TIFF OMITTED] T3514.026
    
    [GRAPHIC] [TIFF OMITTED] T3514.027
    
    Mr. McHugh. I yield back my time. Thank you.
    Mr. Burton. Thank you Mr. McHugh. Are there further 
comments by the members of the committee?
    If not, it was asked of me how this meeting came about. I 
was in Israel last week. I had the opportunity to talk, along 
with my colleagues in our CODEL, with Shimon Perez, the Foreign 
Minister, as well as Mr. Netanyahu. And I would like the former 
Prime Minister to comment on this, but it was my impression and 
I think the impression of my colleagues, both Democrat, 
Republicans and Independents who were on the trip with us, that 
there is--while the Likud and Labor do have differences of 
opinion, they seem to be of one mind regarding the threat that 
emanates from Iraq regarding Saddam Hussein. So, if you would 
illuminate on that, Mr. Netanyahu, I would appreciate it.
    You are welcomed to address the committee.

   STATEMENT OF BENJAMIN NETANYAHU, FORMER PRIME MINISTER OF 
                             ISRAEL

    Mr. Netanyahu. Thank you, Chairman Burton. It is a pleasure 
being with all of you, and I appreciate the thoughtful remarks 
and thoughtful questions from all of you distinguished 
Representatives. I will try to address your questions in the 
course of my opening remarks and in the question and answer 
session that will follow it, because I think they are valid and 
important, all of them, and I think the world needs this 
discussion and other discussions that will be taking place in 
this capital of liberty.
    Last year, a few days after September 11th, I was given the 
privilege of appearing before this committee to discuss the 
issue of terrorism. But I have to tell you that had I been 
given the opportunity to speak before September 11th, I believe 
I would have offered pretty much the same suggestions about how 
the war on terrorism should be fought and how it can be won.
    What I would have pointed out is that the key to defeating 
terrorism lies in deterring and destroying the regimes that 
harbor, abet, and aid terror.
    I would have argued that to root out terror, the entire 
network of terror--that is, the network that consists of some 
half a dozen terrorism regimes and two dozen terror 
organizations affiliated with them--that this entire terror 
network had to be brought down. And most important, I would 
have warned that the greatest danger facing our world is the 
ominous possibility that any part of this terror network would 
acquire nuclear weapons.
    Now, I have to be candid and say that even had I presented 
my views in the most coherent and persuasive fashion, I have no 
doubt that some of you, and perhaps most you, would have 
regarded them as exaggerated and even alarmist. But then came 
September 11th and fiction turned into fact and the 
unimaginable became real.
    That single day of horror alerted most Americans to the 
grave dangers that are now facing our world. And many Americans 
understand today that, had al Qaeda possessed nuclear weapons 
last September, that the city of New York would not exist 
today. And they realize that we could all have spent yesterday 
grieving not for thousands of dead, but for millions.
    But for others around the world, I suppose the power of 
imagination is not so acute. It appears that some people will 
have to once again see the unimaginable in front of their eyes 
before they are willing to do what must be done, because how 
else can one explain the violent opposition, the insistent 
opposition to President Bush's plan to dismantle Saddam 
Hussein's regime?
    Now, I do not mean to suggest for a moment that the 
questions raised here and other questions are not relevant; 
that is, that there are not legitimate questions about a 
potential operation against Iraq. Indeed there are. But the 
question of whether removing Saddam's regime is itself 
legitimate is not one of them. And equally immaterial in my 
mind is the argument that America cannot oust Saddam without 
prior approval of the international community because this is a 
ruler who is rapidly expanding his arsenal of biological and 
chemical weapons. This is a dictator who has used these weapons 
of mass destruction against his subjects and his neighbors and 
this is a tyrant who is feverishly trying to acquire nuclear 
weapons.
    The dangers posed by a nuclear-armed Saddam is understood 
by my country. Two decades ago, well before September 11th, in 
1981, Menachem Begin dispatched the Israeli Air Force on a 
predawn raid that destroyed the Iraqi nuclear reactor at 
Osirak. This probably took place months away from Saddam's 
ability to assemble the critical mass of plutonium for the 
first atomic bomb, or more than one.
    Now, at the time, Israel was condemned by all the world's 
governments, even the government of our closest friend, the 
United States. But I think that over time, history has rendered 
a far kinder judgment on that act of unquestionable foresight 
and unmistakable courage.
    And I believe that it is history's judgment that should 
inform our own judgment today. Did Israel launch that 
preemptive strike because Saddam had committed a specific act 
of terror against us? Did we accord our actions with the 
international? Did we condition this operation on the approval 
of the United Nations? No, of course not. Israel acted because 
we understood that a nuclear-armed Saddam would place our very 
survival at risk.
    And today the United States must destroy the same regime 
because a nuclear-armed Saddam will place the security of our 
entire world at risk. And make no mistake about it, if and once 
Saddam has nuclear weapons, the terror network will have 
nuclear weapons. And once the terror network has nuclear 
weapons, it is only a matter of time before those weapons will 
be used.
    You cannot prevent a dictator who has used terrorism in the 
past, who cavorts and supports and encourages terror 
organizations, from using this weapon by giving it to someone, 
by having them threaten to use it against his enemies. Once one 
of the terror regimes, once one of the principal regimes in the 
terror network has nuclear weapons, you cannot prevent the 
terror network from having nuclear weapons.
    Two decades ago, it was possible to thwart Saddam's nuclear 
ambitions by bombing a single installation. But today, nothing 
less than dismantling his regime will do, because Saddam's 
nuclear program has fundamentally changed in those two decades. 
He no longer needs one large reactor to produce the deadly 
material necessary for atomic bombs. He can produce it in 
centrifuges the size of washing machines that can be hidden 
throughout the country. And I want to remind you that Iraq is a 
very big country. It is not the size of Monte Carlo. It is a 
big country.
    And I believe that even free and unfettered inspections 
will not uncover these portable manufacturing sites of mass 
death. So knowing this, I ask all the governments and others 
who oppose or question the President's plan to look at it from 
the other end of the logic: Do you believe that action can be 
taken against Saddam only after he builds nuclear bombs and 
uses them? And do the various critics, especially overseas, 
believe that a clear connection between Saddam and September 
11th must be established before we have a right to prevent the 
next September 11th?
    I think not.
    I will try to give an analogy. All analogies are imperfect, 
but here is one. If you try to defeat the Mafia, you do not 
just go after the foot soldiers who carried out the last 
attack, or even stop with the apprehension of the particular 
Don who sent them; you go after the entire network of organized 
crime, all the families, all the organizations, all of them.
    Well, likewise, if you intend to defeat terror, you do not 
just go after the terrorists who carried out the last attack or 
even the particular regime that sent them; you go after the 
entire network of terror, all the regimes that support terror, 
all the organizations that they harbor. All of them.
    And doing this always entails the need to act before 
additional attacks are carried out. When the security of a 
nation is endangered, a responsible government has to take the 
actions that are necessary to protect its citizens and 
eliminate the threat that confronts them. And sometimes this 
requires preemption.
    I have to say that in the history of democracies, 
preemption has been, in my mind, the most difficult choice for 
leaders to make because at time of the decision, you could 
never prove the critics wrong. You could never show them the 
great catastrophe that was avoided by preemptive action. And 
yet we now know that had the democracies taken preemptive 
action to bring down Hitler in the 1930's, the worst horrors in 
history could have been avoided. And we now know--and we know 
this from defectors and from other intelligence--that had 
Israel not launched its preemptive strike on Saddam's atomic 
bomb factory, recent history would have taken a turn to 
catastrophe.
    But the most compelling case for preemption against 
Saddam's regime I believe was not made by the President's 
powerful words this morning, but by the savage action of the 
terrorists themselves on September 11th. Their wakeup call from 
hell has opened our eyes to the horrors that await us all 
tomorrow if we fail to act today.
    Now, I was asked by one of you about the sentiment of 
Israelis in the face of the palpable risks involved. My 
friends, I want to say that I am here today as a citizen of a 
country that is most endangered by a preemptive strike. For it 
is I think clear that in the last gasps of Saddam's dying 
regime, he will attempt to launch his remaining missiles, his 
remaining payloads, including biological and chemical payloads, 
at the Jewish state. And though I am speaking here today as a 
private citizen, I believe and I know that I speak and reflect 
the sentiment of not just the majority, but the overwhelming 
majority of Israelis in supporting a preemptive strike against 
Saddam's regime, and this cuts across political lines in 
Israel. We support this preemptive American action even though 
we stand on the front lines, while others criticize it as they 
sit comfortably on the sidelines. But we know that their sense 
of comfort is an illusion, for if action is not taken now, we 
will all be threatened by a much greater peril.
    We support this action because it is possible today to 
defend against chemical and biological attacks. We have gas 
masks that are available. We have vaccinations. They are 
available. There are other means of civil defense that can 
protect our citizens and reduce the risk to them.
    And indeed, a central component of any strike on Iraq must 
be to ensure that the Israeli Government, if it so chooses, has 
the means to vaccinate every citizen of Israel before action is 
initiated. And I want to stress that ensuring this is not 
merely the responsibility of the Government of Israel but also 
the responsibility of the Government of the United States.
    Let me repeat this: The Government of Israel and the 
Government of the United States must jointly ensure that the 
people of Israel have all the available means of civil defense 
before action begins.
    But equally I can say that no gas mask and no vaccine can 
protect against nuclear weapons. Science has not yet invented 
such a device. And this is why regimes that have no compunction 
about using weapons of mass destruction and will not hesitate 
to give these weapons to their terror proxies must never be 
allowed to acquire nuclear weapons. These regimes must be 
brought down before they possess the power to bring us all 
down.
    If a preemptive action would be supported by a broad 
coalition of free countries--and if it is the United Nations, 
all the better--but if such support is not forthcoming, then 
the United States must be prepared to act without it. 
International support for actions that are vital to a Nation's 
security is always desirable, but it must never constitute a 
precondition. If you can get it, fine. If not, act without it.
    I don't want to sound like something familiar to you, but I 
would say, if you can't get it, just do it.
    Now, my friends, under exceptional circumstances, public 
figures may sometimes be forgiven for quoting themselves, and I 
hope today that you will indulge me and grant me this 
privilege, because nearly two decades ago I wrote the 
following. I said that:

    The West can win the war against terrorism. It can expose 
its duplicity and punish its perpetrators and its sponsors. But 
it must first win the war against its own inner weakness, and 
that will require courage. We shall need at least three types 
of courage.
    First, statesmen must have the political courage to present 
the truth, however unpleasant, to their people. They must be 
prepared to make difficult decisions, to take measures that may 
involve great risks and subject them to public criticism.
    Second, the soldiers who will be called upon to combat 
terrorists will need to show military courage.
    Third, the people will have to show civic courage. The 
citizens of a democracy threatened by terrorists must see 
themselves in a certain sense as soldiers in a common battle. 
They must not pressure their government to capitulate or 
surrender to terrorism. If we seriously want to win the war 
against terrorism, people must be willing to endure sacrifice 
and even if there is the loss of loved ones, immeasurable pain. 
Terrorism is a phenomenon which tries to invoke one feeling: 
fear. It is therefore understandable that the one virtue 
necessary to defeat terrorism is the antithesis of fear: 
courage.
    Courage, said the Romans, is not the only virtue, but it is 
the single virtue without which all other virtues are 
meaningless. The terrorist challenge must be answered. The 
choice is between a free society based on law and compassion 
and barbarism in the service of brute force and tyranny. 
Confusion and vacillation facilitated the rise of terrorism. 
Clarity and courage will ensure its defeat.

    My friends, though I wrote these words almost 20 years ago, 
they were never as pertinent, I think, as they are today. A 
year after September 11th, I am certain that this great Nation 
possesses the three types of courage needed to defeat the 
monstrous evil that now confronts us. President Bush has shown 
courage by boldly charting a court to victory. The American 
military is once again prepared to shoulder the burden of 
defeating the enemies of freedom. And most of all, the American 
people have shouldered the courage to fight back and win.
    For me that courage was most pointedly manifested last year 
on Flight 93, because right there in the eye of the storm, 
ordinary citizens displayed extraordinary heroism and rose to 
thwart the murderous designs of the terrorists. They thereby 
saved an unknown number of lives, including perhaps the lives 
of some people in this very room.
    It is, I believe, that same civic courage that has been 
displayed this past year and the willingness of Americans to 
rally behind their government to wage war on terror. I 
recognize this courage, ladies and gentlemen, because I see it 
on the faces of my countrymen every day. Every day, millions of 
Israelis who have been subjected to an unprecedented campaign 
of terror have stood--and stand--firmly behind our government 
in the war against Palestinian terror. We have not crumbled. We 
have not run. We have stood our ground and fought back.
    You see, the terrorists and the tyrants of the world, they 
always get it wrong. They were wrong about Churchill's England. 
They are woefully wrong about Israel. And they are wrong, dead 
wrong, about America.
    I think they simply do not have the means to understand the 
power of freedom. They think that by bombing our free societies 
we will collapse. They see our free debate as debilitating. 
They would see a hearing of this kind, the questions that are 
raised here, as a sign of weakness. They don't understand it is 
a sign of enormous strength. They think our open discourse is a 
sign of that weakness.
    They believe that their cult of death is stronger than our 
love of life. But of course they are wrong. There is nothing 
stronger than the will of a free people united to protect its 
life and its liberty. And now it is up to us to prove the 
terrorists and the tyrants wrong once again.
    I am not saying it will be easy, and it certainly will 
demand some sacrifice, but it must be done today because 
tomorrow's sacrifice will be infinitely greater. Sixty years 
ago Winston Churchill put it this way: ``if you will not fight 
terror when your victory will be sure and not too costly,'' he 
said, ``you may come to the moment when you will have to fight 
with all the odds against you. There may even be a worst case. 
You may have to fight when there is no hope of victory.''
    My friends, this is the heart of the fact. What I said 
before this committee 1 year ago holds true today. Today the 
terrorists have the power--or rather have the will to destroy 
us, but not the power. Today we have the power to destroy them. 
Now we must summon the will to do so.
    Thank you, Mr. Chairman, thank you all.
    Mr. Burton. You know, Mr. Netanyahu, in the late 1930's, 
the Churchill voice was a voice in the wilderness, and all the 
world, including the Prime Minister of Great Britain, did not 
buy it. And it was not until the ax finally fell that they 
realized that they should have listened in the first place.
    I think your message today is very clear. I think it is 
just as clear as what Winston Churchill was trying to get 
across in the late 1930's and unfortunately was not able to 
convince the world of until it was involved in World War II.
    I think your statement, which was very eloquent, boils down 
to one thing, and that is do we react to another attack on 
America after hundreds of thousands or millions of lives have 
been lost, or do we preempt that kind of action from happening 
in the first place? And I think you made a very strong case 
today that we should support President Bush and respond before 
it happens.
    There are many of my colleagues, many of the people in this 
country that say, you know, to declare war on Iraq would be a 
mistake, and we should wait and check and wait and check. But 
we are at war. Three thousand people lost their lives last 
September 11th at the Pentagon, in Pennsylvania and at the 
World Trade Center. And we are at war. And I think people tend 
to forget that. We are not waiting for a war to begin; we are 
at war right now. And it seems to me that the terrorist network 
to which you referred needs to be attacked and needs to be 
attacked as quickly as possible so that we do not have more 
severe losses than we have already experienced.
    With that, let me ask a few questions here. To your 
knowledge, has Iraq kept its team of nuclear scientists 
together? And is that an indication that they are going to 
continue to develop nuclear weapons? Also what nations are 
aiding Iraq, if you know, in the nuclear program? And, of 
course, finally, if you might elaborate a little bit further on 
what you think the first use of nuclear weapons might be.
    Mr. Netanyahu. I can only give you the information that I 
can divulge from my tenure as Prime Minister, and it is 3 years 
old. The information we had was that Saddam was pursuing all 
avenues of developing weapons of mass destruction and the means 
to deliver them. I have to say that he was enjoying in this 
effort the support of Russian technology and I should say 
Russian technologists onsite. They were a principal source. And 
other regimes including North Korea were supporting that effort 
as well.
    There is no question that he had not given up on his 
nuclear program, not whatsoever. There is also no question that 
he was not satisfied with the arsenal of chemical and 
biological weapons that he had and was trying to perfect them 
constantly, if ``perfect'' is the word to describe this 
ghoulish enterprise.
    So I think, frankly, it is not serious to assume that this 
man who 20 years ago was very close to producing an atomic bomb 
spent the last 20 years sitting on his hands. He has not. And 
every indication that we have is that he is pursuing, pursuing 
with abandon, pursuing with every ounce of effort, the 
establishment of weapons of mass destruction, including nuclear 
weapons.
    If anyone makes an opposite assumption, or cannot draw the 
lines connecting the dots, that is simply not an objective 
assessment of what has happened. Saddam is hell-bent on 
achieving atomic bombs--atomic capabilities as soon as he can.
    Mr. Burton. Let me ask you a question regarding chemical 
and biological weapons. We have been told that the Scud 
missiles that were launched at Israel during the Persian Gulf 
war, if they had been tipped with chemical or biological 
weapons, the weapons would have been destroyed when they hit 
the ground. But we have been told that there are drones that he 
has had in his possession that had in the nose of those drones 
the ability to spray chemical or biological weapons when they 
flew over a given target. Are you familiar with that? Can you 
elaborate on that?
    Mr. Netanyahu. I am familiar with some of this, yes. But I 
think, Mr. Chairman, that it is very hard to say what the 
effectiveness of chemical and biological warheads will be when 
they actually impact on the ground. It is very hard to say. 
They might be intercepted in the air. We have some capability 
to that effect in the form of the Arrow antiballistic missile, 
which was jointly developed by Israel and the United States. 
That is a very important development to stop missiles before 
they get there. But, again, these missiles would explode in 
midair, and it depends what residual parts of the warhead 
materialize on the grounds. Probably not much.
    But suppose some of these missiles are not intercepted. 
Suppose they come in. It is impossible right now, to the best 
of my knowledge from the information that we now have, to say 
what the extent of the damage would be. Hence the emphasis, and 
the emphasis in my remarks, on civil protection. Assume the 
worst, prepare for the worst, and you will come out the best. 
We have to assume that he will fire the missiles. We cannot 
assume that we will intercept all the missiles, and we cannot 
assume that the warheads will not distribute chemical and, what 
is worst, biological material. So we must take all the 
precautions, and it is possible, as I said, to reduce--
substantially reduce the risk of such attacks even if they get 
through.
    And this I think should be the focus of Israel and the 
United States before action is taken. I don't think this is an 
ancillary part of the war aims. I think this should be built 
into the war aims. Israel, as the most likely target of Saddam, 
as has been demonstrated once, must be protected.
    Mr. Burton. Mr. Turner.
    Mr. Kucinich.
    Mr. Kucinich. Thank you.
    Mr. Prime Minister, when you were Prime Minister, did you 
identify the nuclear capabilities of Iraq, if any?
    Mr. Netanyahu. We could not place an exact time. We knew 
that he was developing these nuclear capabilities. We could 
not, Mr. Kucinich, say exactly how long it would take him to 
complete the engineering of an effective nuclear device. But 
our assessments kept shrinking; that is, our Intelligence 
Community, as we moved along the axis of time, the time that we 
assumed it would take him to create nuclear weapons was 
constantly shrinking, but we couldn't say with absolute 
precession how long it would take him.
    Mr. Kucinich. Do you have any new evidence of Iraq's weapon 
capabilities--nuclear capabilities?
    Mr. Netanyahu. I cannot give you even an oblique reference 
to information in the last 3 years because I am busy going 
around the world, visiting Washington. I am not prying into 
privileged dossiers. There is this thing, ``need to know,'' and 
I do not really need to know right now. But I think you can be 
sure that when I did need to know, there was a constant 
upgrading of these weapons. Constant upgrading of these 
weapons. Constant efforts to make them more lethal and to 
expand the reach of the delivery systems to deliver them.
    Mr. Kucinich. I would respectfully suggest to the Prime 
Minister, notwithstanding the great affection I have for Mr. 
Prime Minister, that there is a need to know if the United 
States is being called upon to launch preemptive action against 
Iraq. There is a need to know the evidence. I share the concern 
that other Members have articulated here about the effect that 
a preemptive attack on Iraq by the United States would have not 
only on the people of our country who would be called upon to 
wage that, and innocent civilians, but also the effect that it 
would have on Israel.
    Now, you stated in your remarks that if the United States 
launched a preemptive attack on Iraq, that Iraq in Saddam 
Hussein's--as you described it--dying gasp would be expected to 
launch a counterattack on Israel.
    If the United States does not launch a preemptive attack on 
the State of Iraq, do you see any indication that Iraq is 
prepared to launch an attack on Israel?
    Mr. Netanyahu. First of all, let me comment on when I said 
I do not need to know, I meant I do not need that kind of 
detailed information. It always involves, just by the nature of 
the information, some indication of source, and I for one try 
to avoid that when I am not in office. That is what I meant.
    But I also say that if you connect the dots, here is a man 
who from the minute he achieved power is trying to create a 
nuclear weapon. Twenty years ago he is very close to producing 
it. He is foiled. He changed the technology to centrifuges that 
will prevent him from being foiled again. We know that he is 
taking in nuclear technologists and nuclear technologies from 
various countries. We know that he is developing the means to 
deliver these weapons. We have defectors who describe how 
committed he is to this above all else. So we have all of these 
dots, and we say, well, we do not know exactly what is 
happening.
    You know, it is like you are about to see somebody plunging 
a knife into someone, you look in a keyhole, you followed a 
murderer. You know that he has already killed a few people, and 
you see him trail somebody, and you are trailing him. He shuts 
the door, you are looking through the keyhole, and you see him 
grasping the throat of this person, raising the knife, and then 
the light goes out, and the next thing you know is a body is 
found. And you can say, well, I did not actually see him in 
flagrante, in the act, if you will.
    But I think, Mr. Kucinich, that it is simply not reflecting 
the reality to assume that Saddam is not feverishly working to 
develop nuclear weapons as we speak.
    Mr. Kucinich. The question I asked is do you have any 
indication that Saddam is going to attack Israel, absent a 
preemptive launch by the United States?
    Mr. Netanyahu. I cannot tell you that he will attack Israel 
at a particular time. I think what you have to assume--and this 
is a fair assumption--that he does not have to necessarily 
directly attack Israel. What you can do, what these people do, 
for example, the Taliban regime did not directly attack the 
United States. It harbored a terrorist group that did the job 
for them. The Taliban regime did not have its intelligence 
officers casing the joint, so to speak. Somebody else did it 
for them.
    If Saddam has a nuclear weapon, he could use it to threaten 
or to actually detonate a nuclear regime directly or 
indirectly. He does not necessarily have to do it and undertake 
the risk of a response by Israel or by anyone else. And this is 
precisely the problem. You are not dealing with Iraq alone. You 
are dealing with a terror network. You are dealing with a 
system where you have proxies. We now live in a world where 
these people have proxies.
    Mr. Kucinich. I know my time is up. Mr. Netanyahu, thank 
you.
    I want to ask one last question, and that is you talk about 
a network of terror. Are there any other nations that you would 
recommend that the United States launch preemptive attacks upon 
at this point?
    Mr. Netanyahu. No, the issue is not--the issue is not--
first of all are there other Nations that are developing 
nuclear weapons, yes.
    Mr. Kucinich. Should we launch any other preemptive 
attacks?
    Mr. Netanyahu. First let me say what they are, and then I 
will make a suggestion on how to proceed. The answer is 
categorically yes. The nations that are vying who will be the 
first to achieve nuclear weapons is Iraq and Iran, and Iran, 
by, the way is also outpacing Iraq in the development of 
ballistic missile systems that they hope would reach the 
eastern seaboard of the United States within 15 years. I guess 
that does not include California, but includes Washington.
    A third nation, by the way, is Libya as well. Libya, while 
no one is watching, under the cloak, is trying very rapidly to 
build an atomic bomb capability. So you have here now three 
nations. Not surprisingly all three have been implicated in the 
past in terrorist activity using the clandestine means of 
terror and proxies.
    Now, the question that you asked is vital, it is important, 
and that is what do you do about it? You can fight all of 
them--you have to dismantle the network. And the question is do 
you dismantle all of it at once? No, you did not. The first 
thing you did after the wakeup call of September 11th was that 
you took on the first regime that directly perpetrated that 
catastrophe. You removed the Taliban regime, and you scattered 
al Qaeda, although it has not been completely destroyed yet.
    Now what is your next step? Knowing that three of these 
nations are developing nuclear weapons, this is not a 
hypothesis. It is fact. Iraq, Iran, and Libya are racing to 
develop nuclear weapons. So now what is the next step? I 
believe that the next step is to choose--it is not a question 
of whether you have to take action or what kind of action and 
against whom.
    I think of the three, Saddam is probably in many ways the 
linchpin because it is possible to take out this regime with 
military action, and the reverberations of what happens with 
the collapse of Saddam's regime could very well create an 
implosion in a neighboring regime like Iran for the simple 
reason that Iran has--I don't want to say a middle class, but 
it has a large population that is--that might bring down the 
regime just as it brought down the Shah's regime.
    So I think that the choice of going after Iraq is like 
removing a brick that holds a lot of other bricks and might 
cause this structure to crumble. It is not guaranteed. The 
assumption of regime removal in Iraq and implosion in Iran and 
implosion in Libya is an assumption. It is not guaranteed. But 
if I had to choose should there be military action first 
against Iraq or first against Iran, I would choose exactly what 
the President has chosen to go after Iraq.
    Mr. Kucinich. What would you choose second?
    Mr. Netanyahu. I would wait and see what the effects are, 
and I think the effects could be quite mighty and startling. 
The political culture in this region is not one--in these 
societies is not one of respecting force, it is worshipping 
force. And the determination, resolution of the United States 
in applying it, I think that this could have beneficial effects 
that might preclude the application of further military action. 
I am not saying that you should disavow it from the start, but 
I am saying that the more resolutely and quickly you act now, 
the more victories you gain up front, the more victories you 
might again later without needing to apply such overt military 
power.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. And thank you.
    We have seen you in Israel, and we have seen you here, and 
you are very rational about these issues.
    So I would like to ask a couple of things. You have a peace 
movement in Israel. We have peace movements in the United 
States. And we talk about inspectors that might do something if 
Saddam does let us in. Could you tell me what you would tell 
those people in both Israel and the United States? Are they 
just naive or what? A lot of them mean very well, I am sure, 
but that does not solve the problem.
    Mr. Netanyahu. Well, I think there is a confluence of 
opinion right now in Israel, Mr. Horn. I think there has been a 
sea of change in opinion in Israel over the last 2 years. There 
was never a peace camp because the entire country was united in 
the desire for peace, but there were different ideas on how to 
achieve it.
    The idea that animated Oslo was that the peace with our 
Palestinian neighbors would be achieved not by the traditional 
method of deterrence, which is what I think you can do with a 
dictatorial society opposite you, or a dictatorial regime. It 
was based on the idea that you could develop trust with a 
dictatorship and forgo deterrence. And in order to develop this 
trust, we gave--the Israeli Government at the time gave Arafat 
a large swath of territory girding and overlooking our major 
cities; gave him a small army; gave him 50,000 rifles; gave him 
international recognition and access to a great deal of money. 
And in exchange he made two promises. One is that he would 
recognize Israel and forgo the propaganda for its destruction, 
and the second was that he would abandon terror.
    He pocketed all of these benefits and then proceeded to 
summarily violate these two commitments. His State-controlled 
press, every word, every image that you hear and see in the 
Palestinian media is controlled by Arafat; was propounding day 
in and day out in Arabic the doctrine of policide, the 
destruction of the State, our State, Israel, to a generation of 
Palestinian youngsters, to every one; and second, of course, 
proceeded to launch the worst and most consistent campaign of 
terror that the world has seen.
    Nothing compares to the horror of September 11th. No single 
terrorist action in history has compared to it, and I hope 
nothing will ever compare to it again. But there is equal 
unprecedence, lack of precedence, for the day-in and day-out 
carnage that Arafat had meted on us with the savagery of 
suicide bombings carried out by people who graduated his 
suicide kindergarten camps, suicide universities, who visited 
his suicide museums and so on.
    So people woke up. They now say we were wrong. Many people. 
I cannot say all, but I can say just by reading the public 
opinion polls and talking to people in Israel, there is a 
tremendous unanimity in the country. They are not fooled. They 
understand that Arafat is essentially an Osama bin Laden with 
good PR. Well, medium PR. It is not that good. At least in 
America it does not go that far. It has a wider reach in 
Europe. But I think many in America have seen through him. I 
don't think he gets the time of day here, and I think it is a 
question of time before he is ousted. He should have been 
ousted in my opinion right at the start of this outrage 2 years 
ago.
    But I fully agree with President Bush when he says that 
Arafat has to go. There has to be the opportunity for other 
leaders to rise.
    So I think in Israel today actually, I see a lot more 
unanimity than before. And I see, frankly, notwithstanding the 
confines of a debate in a democratic society, I see a similar 
process here in the United States following September 11th. My 
friend whom I respect a great deal, the Pulitzer Prize-winning 
writer, Charles Krauthammer, said in the 1990's, America slept 
and Israel dreamed. And he said that on September 2000, Israel 
woke up with the beginning of the terror campaign launched 
against it. And a year later in September 2001, America woke up 
with the bombing of New York and Washington. I think that 
reflects what has taken place in our democratic societies.
    I am not sure the same applies with equal vigor to other 
parts of the democratic world, but I think it does not matter. 
Europe never had a stellar record in understanding global 
threats, threats to Europe itself, and acting in time to thwart 
them. But the United States and Israel have a pretty good 
record, and it is because the people unite in their 
understanding of the danger and their willingness to act 
against it.
    Mr. Horn. What do you think of the inspectors' approach? 
Did it do much before he just moves things around?
    Mr. Netanyahu. It did some, but it is a cat and mouse game, 
and he is the cat, and he is successful, a successful cat. It 
is not very difficult to deceive inspectors. It is not even 
difficult to deceive satellite inspection. You can burrow 
tunnels and hide--did you ever see the Great Escape? Remember 
that movie where all these guys come out, and they have the 
sand which they distribute through the trousers while they are 
walking in the yard? That is essentially what dictators do. 
They can create tunnels and labyrinths that you never discover 
that are impervious to radar and other means.
    When you have an entire country to hide portable 
centrifuges that are a little bigger than those two cameras, it 
is not very difficult. You can get away with it, and he has 
gotten away with it, frankly.
    Mr. Horn. Thank you.
    Mr. Burton. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I just want to revisit something that Mr. Kucinich brought 
up earlier. You mentioned in your own comments that Iran is 
much further along in the path of throw power ability to move a 
nuclear or other rocket toward the United States than is Iraq; 
am I right?
    Mr. Netanyahu. More developed than Iraq, yes. But Iraq is 
trying to catch up.
    Mr. Tierney. Right. Well, we also know that there is 
speculation that Iran may have nuclear weapons, but we know 
that Iraq is still floundering around looking for materials, 
moving in that direction.
    Mr. Netanyahu. I don't know that Iran has nuclear weapons.
    Mr. Tierney. No, I don't think anybody does. There is 
speculation on that. But at least as certain as we can possibly 
know, Iraq is still looking for some materials in order to try 
to get to that point.
    Mr. Netanyahu. Right.
    Mr. Tierney. We have information reported in the Washington 
Post and other papers that Iran shelters dozens of al Qaeda 
fighters, identifying the cities of Mashhad and Zabol, yet we 
have the Bush administration telling us they do not have any 
firm evidence that there is any connection between al Qaeda or 
the acts of September 11th and Iraq. So I guess I want to ask 
you again in light of those comparisons, why is it that you 
think that if all of these countries in your words are 
``problems'' for us, why would you pick Iraq first as opposed 
to Syria, Iran or the others?
    Mr. Netanyahu. I think that it is not first. It is second. 
The first one is the Taliban. Now the question is what is the 
second?
    Mr. Tierney. Excuse me 1 second. You are making the 
connection between the Taliban and Iraq?
    Mr. Netanyahu. Yes, I am. I am saying if you look at those 
who harbor terrorists and those who support terrorists----
    Mr. Tierney. I guess I was looking for a connection between 
September 11th, and my understanding why we went to the Taliban 
was there was a connection. They were harboring someone who we 
believe did the act of September 11th.
    Mr. Netanyahu. Yes, that is the first reason.
    Mr. Tierney. Now you will take me from September 11th to 
Iraq somehow?
    Mr. Netanyahu. Yes, but I am saying something else. I am 
saying that the question is not whether Iraq was directly 
connected to September 11th, but how do you prevent the next 
September 11th? You have a subset of the international system 
that disavows any constraints on the use of power. These 
handful of regimes and the terrorist organizations that they 
harbor are fueled by a terrible anti-Western zealotry, a 
militancy that knows no bounds and does not respect any force, 
knows no limits to the uses of power.
    Mr. Tierney. And one would be Iran? More rocket capacity 
than Iraq and harbors al Qaeda people, or at least----
    Mr. Netanyahu. Yes. Now the question you have is this: This 
is now a question of not of values. Obviously, we would like to 
see a regime change, at least I would like to, in Iran, just as 
I would like to see in Iraq. The question now is a practical 
question. What is the best place to proceed? It is not a 
question of whether Iraq's regime should be taken out, but when 
should it be taken out. It is not a question of whether you 
would like to see a regime change in Iran, but how to achieve 
it.
    Iran has something that Iraq does not have. Iran has, for 
example, 250,000 satellite dishes. It has Internet use. I once 
said to the heads of the CIA when I was Prime Minister that if 
you want to advance regime change in Iran, you do not have to 
go through the CIA cloak-and-dagger stuff. What you want to do 
is take very large, very strong transponders and just beam 
Melrose Place and Beverly Hills 90210 into Teheran and Iran. 
That is subversive stuff. The young kids watch it, the young 
people. They want to have the same nice clothes and houses and 
swimming pools and so on. That is something that is available, 
and internal forces of dissention that are available in Iran--
which is paradoxically probably the most open society in that 
part of the world. It is a lot more open than Iraq, which is 
probably the most closed society, and therefore you have no 
ability to foment this kind of dynamic inside Iraq.
    So the question now is choose. You can beam Melrose Place, 
but it may take a long time. On the other hand, if you take out 
Saddam's regime, I guarantee you that it will have enormous 
positive reverberations on the region. And I think that people 
sitting right next door in Iran, young people and many others 
will say the time of such regimes of such despots is gone. 
There is a new age.
    Mr. Tierney. Is that raw speculation on your part, or do 
you have some evidence to that effect?
    Mr. Netanyahu. You know, I was asked the same question in 
1986. I had written a book in which I had said that the way to 
deal with terrorist regimes--well, with terror was to deal with 
the terrorist regimes. And the way to deal with the terrorist 
regimes among other things was to apply military force against 
them.
    Mr. Tierney. The way we did in Afghanistan.
    Mr. Netanyahu. The way--I want to answer your question.
    Mr. Tierney. I am running out of time, so I was quickly 
trying to get to that I think we have done what you proposed in 
Afghanistan, yet I haven't seen that neighborhood effect.
    Mr. Netanyahu. I think there has been an enormous effect. 
The effect was--we were told that there would be a contrary 
effect. People said that there would be tens of thousands of 
people streaming into Afghanistan, zealots outraged by 
America's action, and this would produce a counterreaction in 
the Arab world----
    Mr. Tierney. But I think you were saying when we take an 
action like we did in Afghanistan, we would see all the other 
countries fold.
    Mr. Netanyahu. No, what we saw was something else. What we 
saw was everybody streaming out of Afghanistan. The second 
thing we saw was all the Arab countries and many the Muslim 
countries trying to side with America, to be OK with America.
    The application of power is the most important thing in 
winning the war on terrorism. If I had to say what are the 
three principles of winning the war on terror, it is like what 
are the three principles of real estate: location, location, 
location. The three principles of winning the war on terror are 
the three Ws: winning, winning, and winning.
    The more victories you amass, the easier the next victory 
becomes. The first victory in Afghanistan makes a second 
victory in Iraq that much easier. The second victory in Iraq 
will make the third victory that much easier, too, but it may 
change the nature of achieving that victory.
    Mr. Tierney. May.
    Mr. Netanyahu. It may be possible to have implosions take 
place. I don't guarantee it, Mr. Tierney, but I think it makes 
it more likely, and therefore I think the choice of Iraq is a 
good choice, it is the right choice.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    Thank you, Prime Minister Netanyahu. I am wondering about 
your understanding, sir, of the enmity among the main Iraqi 
factions, Shia, the Sunnis, the Kurds, and how difficult do you 
think that rebuilding Iraq would be, given these particular 
factions? And I wonder, do you think that a U.S.-led 
redevelopment of Iraq would significantly further 
destabilization in the Middle East?
    Mr. Netanyahu. I was asked by you and by others what would 
happen after the ouster of Saddam, and I think that this is a 
vital question because I think it depends what the United 
States does.
    If the United States merely goes in, throws out Saddam, and 
walks away, I think it will miss an important opportunity and 
actually not effect the true means of regime change. When I use 
the words ``regime change,'' I mean those words in their most 
fundamental meaning. Regime change. Change the nature of the 
regime. That is, not replace one dictator with another, but 
replace dictatorship with democracy or at least with 
democratization. This is the great opportunity that would be 
afforded to the Middle East, to the prospects of peace and 
development, to the Iraqi people themselves, and to others.
    That is, if the United States, after ousting Saddam, seeks 
to advance a democratized Iraq, couples those political goals 
with an economic package to rebuild the infrastructure of Iraq, 
to advance it, to create small business grants and loans to 
create the spirit of entrepreneurship that very much 
characterized Iraq for many, many decades, actually for many 
centuries, then Iraq could be transformed. It may not be and 
may not become a Western democracy. I am not Pollyannaish about 
it, but when people say it is not possible to have democracy in 
a Muslim country, I say, oh, really? What about Turkey? And I 
say, well, OK, Turkey is not necessarily Luxembourg. That is 
true, but if I have to choose between Turkish-style democracy 
and Iranian-style theocracy or Saddam-style democracy where he 
gets 99 percent of the vote, I know what I would choose, and I 
know what you would choose, too.
    That is really the task. The task and the great opportunity 
and challenge is not merely to effect the ouster of the regime, 
but also to transform that society and thereby begin the 
process of democratizing the Arab world. That is essential.
    We can draw lessons from the struggle that the democracies 
led by the United States waged against another unreformed 
despotism with a militancy that knew no bounds through the use 
of force. I am talking about, of course, the battle against 
Hitlerism. Now, America, the first thing it said was, we have 
to oust Hitler. They did not ask what would happen afterwards, 
how will we deal with Germany, all the questions that come to 
mind later. They never asked that. The first thing--the 
palpable danger of this regime acquiring nuclear weapons was in 
their minds, and the threat to our civilization was in their 
minds. So first he had to go.
    But they did not stop there. They went in there and imposed 
limitations on German sovereignty, some of which last to this 
very day. This put in the Marshall Plan. They had democratic 
elections, transition to the permanent democratic political 
system that we have in Germany today. And five, six decades 
later when you say, what is the protection against neonaziism, 
the reemergence of a new Hitler in Germany, is not American 
tanks or NATO soldiers; it is German democracy. There are 
neonazis there, but they are simply washed away by democracy.
    We have a situation where the Arab world is cloistered. It 
does not have that ventilation. It has to choose between Saddam 
and the ayatollahs, between Arafat and the Hamas. And I think 
that the greatest achievement, the greatest change would take 
place and the greatest long-term protection against the return 
of another Saddam, another bin Laden, another Mullah Omar and, 
after Arafat is ousted, another Arafat, I think the greatest 
protection is to ventilate these societies with winds of 
freedom, democracy, or if I want to be realistic, 
democratization coupled with an economic package.
    I think that should be the step against afterwards in Iraq, 
and I think it would actually stabilize Iraq. It might send a 
message. I think it will, to neighboring Iran, to neighboring 
Syria, and the people will wake up, and they will say, we can 
have a real life. We can have choice. Our children can have a 
future, that is not a bad idea.
    Mrs. Morella. Can we do it alone?
    Mr. Netanyahu. If you want to, you can do it alone, but I 
don't think you will do it, frankly. You will not do it alone 
for the simple reason that in these circumstances when you 
lead, others will follow. If you wait for them to join you, you 
will never lead. Lead, and they will follow.
    Mr. Burton. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Netanyahu, you said earlier that you did not like to be 
quoted, but I am going to quote you from a speech you gave 
before a Senate committee in April. ``Clearly the urgent need 
to topple Saddam is paramount. The commitment of America and 
Britain to dismantle this terrorist dictatorship before it 
obtains nuclear weapons deserves the unconditional support of 
all sane governments.''
    Many analysts believe that the Gulf war ignited Islamic 
terrorist groups. If Saddam is toppled, will this action 
inflame Arab animosity toward the West and serve to empower 
terrorist groups throughout the Middle East? And in your 
opinion, do you really believe that Saddam can be removed from 
office without compounding terrorist forces?
    Mr. Netanyahu. Mr. Clay, I happen to be one that thinks 
that, of what is spread and inflamed, Islamic fundamentalism or 
the twin events that took place 20 years ago, one is the 
establishment of the overtly Islamic Republic of Iran that 
fanned the flames of militant Islamism from the Philippines to 
Los Angeles worldwide and affecting, fortunately, a minority of 
Muslims but in many, many communities.
    The second event was the victory of the Mujaheddin in 
Afghanistan over a superpower, thereby convincing, if you will, 
this brotherhood of Islamic fighters of which bin Laden was 
one, that the power of fanatic Islam could overcome any power, 
including that of a superpower.
    I think these are the things that fueled, that rocketed 
Islamic fundamentalism and militant Islamic terror to their 
present proportions. I think that what compresses it is exactly 
the opposite of what fueled it. What fueled it was a sense of 
victory. What compresses it is a sense of defeat.
    The crucial thing that drives the spread of militant Islam 
and militant Islamic terrorism is hope. It is hope that the 
doctrine will be able to achieve its designs of world 
domination and the crushing of enemies. The more that hope 
grows, the more militant Islam and militant Islamic terror 
grows. The more it is crushed, the more it compresses, the 
more, in the same proportion, the ability of these terrorists 
and these militants to recruit new recruits to their cause, 
that, too, is reduced proportionately.
    I began to say to Mr. Tierney I think that--or to--I think 
it was Mr. Tierney. He asked me, well, you know, how do you 
know? I said that in 1986 I wrote a book that said you should 
take action against terror regimes, and that would tend to 
compress them and their activities. Apparently, it turns out 
that President Reagan had read this book. I don't know if he 
read it before he decided to strike Libya or after, but, 
nevertheless, Secretary Shultz wrote to me and he said that 
this made a profound impression on him. Somehow word got out 
that I was advocating this.
    So after the United States bombed Libya, I was interviewed 
by CBS, by Mr. Rather. Dan Rather interviewed me, and he 
interviewed a noted Arabist analyst, and he asked what would 
happen now after this American bombing of Libya? And the 
Arabist--I think it was Patrick Seal--said there will be more 
terrorism, terrorism will grow, the Islamic masses will be 
inflamed, American embassies would be burned, Qadhafi would 
become a hero, and he would make more terrorism. I think I am 
giving him a fair paraphrasing of his remarks.
    Then Mr. Rather he asked me, what do I think would happen? 
And I said, nothing. Nothing would happen. American embassies 
will not be burned. Qadhafi would crawl into his hole. He would 
be very careful in committing any more terrorist acts, not 
because he is not a terrorist but because he might die. He 
almost did in that raid. And people will respect American 
power. In fact, what that single action did was to produce a 
complete cessation, nearly a complete cessation of terrorism 
from Libya. He tried one clandestine act, was caught in the 
process and of course didn't do anything since, but Libya has 
avoided this because of that action.
    In short, what I am arguing is that the application of 
American resolve and force, preferably with other countries, 
but the application of that force against militant Islam and 
against militant Islamic terrorism is the only way to compress 
it. There is no other way to compress it.
    But I am also arguing that, in the long run, what you have 
to do is to get at the sources of fanning the hatred, the 
sources that fan the hatred, the regimes that propagate the 
creed, and where else, where better to begin the process of 
changing these regimes than in the places where you are going 
to change them anyway? You can go, of course, to other places 
in the Arab and Muslim world in which you are not engaged 
directly in the conflict today. I would not advise that.
    I would say, use the opportunity of eliminating the nuclear 
threat from Iraq and begin a regime change there. Use the 
opportunity of a regime change in what I call ``Arafatistan'' 
when we have a new regime there to begin a process of 
democratization, a process of economic reconstruction and open 
opportunity, political and economic for the people. Use that in 
order to begin to change the political culture that is so close 
to being closed, have it ventilated.
    That, ultimately, is the protection; and I think that will 
create not inflaming of masses but the dousing of the hatred 
that has systematically sprayed from these regime centers.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Clay.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Prime Minister, I would just like to ask--it seems 
pretty obvious on its face, but I am going to ask this 
question: Why is Saddam Hussein creating these weapons of mass 
destruction? Why is he in such a rush to get his hands on 
nuclear weapons? He doesn't have a means to deliver a nuclear 
weapon, but it seems to me that he has some plans, he has some 
goals. So, as I say, it is pretty obvious. But it seems like 
there are those who probably do not understand his intentions.
    I think some of our allies--and if you look at the 
situation with the United Nations, he has continued to deny 
them the opportunity for inspections. So it seems like that 
there is a good reason for why he is persisting in this course.
    Mr. Netanyahu. Mr. Lewis, he is not developing those 
weapons to win the Peace Prize.
    Mr. Lewis. Yes. Where do you think he would be more likely 
to direct those weapons through a terrorist organization?
    Mr. Netanyahu. It depends on how confident he feels. Just 
imagine, suppose he had a nuclear weapon. Suppose we had not 
knocked out the Osirak reactor, that he would have developed by 
the late 1970's, or the late 1980's, he would have developed a 
nuclear bomb, a lot before that. Now he devours Kuwait, which 
he did. It is not clear to me that we would have had a Gulf 
war, because he would have brandished that weapon right up 
front, and he would have said, go ahead, make my day, or 
whatever he would say, OK?
    Of course, the United States would now be caught in a 
tremendous bind. Because if he had that weapon, he doesn't 
necessarily need--in the age of terrorism, he doesn't need 
ballistic missiles to reach the United States. First of all, he 
is developing ballistic missiles, but he could equally use 
terror proxies to deliver a payload here.
    I had written in 1996 that the danger of militant Islam and 
these regimes and the terrorist organizations is not understood 
in the West. I said that because of the proliferation of these 
adherents in the West then these regimes do not need ICBMs 
because they, the terrorists, will be the delivery system. They 
themselves could deliver a payload.
    And I said, too--and here again you are catching me quoting 
myself because, well, people like to quote themselves. What can 
I do? I said that the next thing you will see is not a car bomb 
in the basement of the World Trade Center. I said the next 
thing you will see is a nuclear bomb in the World Trade Center. 
Well, I wasn't exactly right. They didn't use a nuclear bomb. 
They used two airplanes stocked with fuel. It is like a small 
tactical bomb.
    That is what they used, and that is what Saddam could use. 
Once he has the weapon, he has the choice. He could flaunt it, 
he could use it, he could let others use it, he could have 
delivery systems in the West that do not require missiles, he 
could put it on top of a missile.
    Do we want to wait? Is the issue that we want to wait and 
find out? Do we have any doubt that he is developing? To be 
honest and fair--and I must be honest and fair. This is not a 
court of law. This is not a question of legalisms. It is a 
question of a realistic assessment of a threat, a probable 
threat to our common civilization.
    There is no question whatsoever that Saddam is seeking and 
is working and is advancing toward the development of nuclear 
weapons, no question whatsoever. There is no question that once 
he acquires it, history shifts immediately.
    I will give you an example to drive this point home, and I 
will do something that--well, I am a private citizen, so I will 
say this. Now, just imagine, imagine that the Taliban takes 
over Pakistan. Pakistan is alleged to have nuclear weapons. Now 
imagine that the Taliban would have atomic weapons. Imagine 
that you could forestall it. Would you forestall it, Mr. Lewis? 
Don't you think this is a catastrophic development?
    Mr. Lewis. Absolutely.
    Mr. Netanyahu. You see, all nuclear proliferation is bad, 
but some of it is a lot worse. If Holland acquires nuclear 
weapons, it is not the same thing as the Taliban or Saddam or 
Iran, the Ayatollah acquiring nuclear weapons, or Qadhafi. It 
is fundamentally different. Because these regimes have no 
compunction whatsoever in the use of these mass weapons. Saddam 
himself has shown that he was willing to gas people, one of the 
few instances since the 1920's when gas warfare was used.
    You cannot rely on the concerns, on the--I would say on the 
mechanisms that inhibit the use of these weapons that apply 
elsewhere. Even in nondemocracies there are such inhibitions. 
What you have here are single-man regimes, typically, without 
the political, military, and scientific buffers that always 
provide a hedge between the leadership and pressing that 
button. Here it is Saddam's whim. He decides. He pushes the 
button. He has a peculiar way of resolving issues like that.
    During the Gulf war, there was a debate, a problem of some 
medical shortages. He was sitting in the cabinet room, he 
called the health minister to the other room, and he killed 
him. He could press the button, he can press the trigger.
    The emergence of nuclear weapons--that is, single-man 
regimes or zealot, tyrannical, terroristic regimes that acquire 
nuclear weapons is an enormous threat to our civilization. I 
cannot stress that enough.
    I am not speaking here as a partisan, because we don't 
have--am I speaking as an Israeli? Yes. But I am speaking here 
as a citizen of the free world, as a citizen of a world that is 
entering dangers that are not yet understood. It is not 
important that we meet here in 10 years and I will quote what I 
said here today, because if they had nuclear weapons on 
September 11th, we couldn't meet here.
    Mr. Lewis. Well, I think the question was asked after 
September 11th of last year, why didn't we know and why didn't 
we do something? I think we can be forgiven for being caught 
off guard the first time, but I don't think we can be forgiven 
when we know, we absolutely know that a man like Saddam Hussein 
has that kind of power and has all the will to put those 
weapons in the hands of terrorists and we don't do something 
about it. I don't think we can be forgiven for that.
    Thank you, sir.
    Mr. Burton. Thank you, Mr. Lewis.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    I am sitting here, and I am very troubled. We were attacked 
a year ago on September 11th by what we thought was a group 
called al Qaeda led by Osama bin Laden. I don't hear his name 
anymore. We launched a response to an attack on the continental 
United States. I don't hear his name anymore.
    We have not won a war in Afghanistan. We don't know whether 
Osama bin Laden is dead or alive. No one has given us any 
proof. We do not know where the al Qaeda cells are around the 
globe. All of a sudden, we are no longer looking for him.
    I think they brought off a brilliant scheme. Our most 
prestigious intelligence group in the world could not warn us, 
and we did nothing. So I am troubled, because we have won no 
war against the terrorists. It seems to me that we are focusing 
on somebody who is in a neighborhood who has weapons of mass 
destruction, but the circumstances could describe India; 
Pakistan, in their squabble over Kashmir; Iran and several 
other places in the world, but we are focusing on Saddam 
Hussein and Iraq.
    There is an orderly process that seems to be overlooked in 
all of this. I was very fascinated to hear Kofi Annan today; 
and, in essence, he was saying that only the United Nations can 
give any legitimacy to any type of action by one country 
against another.
    We tried to change the leadership in Cuba. We had the Bay 
of Pigs, if you remember, trying to go after Fidel Castro. He 
is only 90 miles off our coast. Now we are trying to choose a 
new regime and a new leadership in Iraq.
    There is no guarantee that we are going to gain a 
democratic leadership in Iraq. But what really troubles me is 
that we are going to go against the orderly process, a 
diplomatic effort, and we are going to become aggressors in a 
neighborhood that we are not even part of.
    Listening to you, Mr. Prime Minister, I would think you are 
building up a great case for Israel to be the aggressor and we 
are your allies. But as a member of the United Nations, we then 
will violate the process that we bought into, and that is very 
troubling to me.
    Oh, I know all about the danger that Iraq presents, but I 
don't know and I feel very uncomfortable in going this alone 
without the support of the United Nations. Since we, and you, 
are a member of the United Nations, we violate the orderly 
process. Would you comment, please?
    Mr. Netanyahu. Yes. Well, I think the first question is, do 
you want to merely avenge September 11th or do you want to win 
the war on terror? If you want to stop with September 11th, go 
after al Qaeda----
    Ms. Watson. Can you connect the dots for me between the 
aggressors on September 11th? The aggressors. This is my 
question.
    Mr. Netanyahu. And I will answer it. I think that there are 
now developing enormous threats, not merely to Israel. Israel 
was attacked because it is seen as a frontline, a frontal 
position of the United States.
    They hate us because they hate you. They hate you because 
of us, that, too; but the main reason they hate us is because 
they have hated you, and for these militants they have hated 
you for about 2 centuries and the West for about 5 centuries. 
So there is a hatred of the United States. That hatred has 
produced that attack.
    That attack by bin Laden is something that you want 
obviously to punish and, in many ways, you did the first thing 
that is required. You took down the Taliban regime, and now bin 
Laden has scattered. I do not think he is going to be 
effective, because he needs territory to work from. He is on 
the run. It is very hard to work when you are on the run, when 
you have no inviolable territory.
    I suppose he is like kind of a Dr. Goebbels after the 
collapse of the Nazi regime. So apprehending him is obviously 
important. It is also a matter of justice. Apprehending 
Goebbels was a matter of justice.
    But if you start taking away the regimes that could serve 
his purpose--for example, I was told by your members here that 
al Qaeda, some of them are in Iran. Deprive that base, there is 
no international terrorism of any kind. Al Qaeda, Hezbollah, 
Hamas--you name them, all of them--there is no international 
terrorism if you take away the support of sovereign states, and 
the sovereign states are a few. If you want to win the war, you 
just have to neutralize these states.
    In neutralizing them, you have two options. It is like when 
Kamikaze fighters are coming at you and bombing you. You can 
shoot one, you can shoot the other, but if you really want to 
stop it, you have to shoot down the aircraft carriers. There 
are only a handful of aircraft carriers.
    Now, when I say shoot down, you have really two options. 
You can either deter or destroy. Saddam has not been deterred. 
He has not been deterred. He has not been deterred by 
inspections, he has not been deterred by--even by your threats. 
He devoured Kuwait like that. And once he possesses nuclear 
weapons I assure you he will not be deterred. You will be 
deterred. That is the difference.
    So I think if you want to win the broader war on terror, 
you have to get rid of these regimes.
    Now the question you asked, and I think it is an important 
one, you said what about the U.N.? The U.N. is the one that 
should give you the legitimacy, and I think Kofi Annan, who 
happens--personally, I am very close to him and a friend of 
his, but I take issue with his claim today that the U.N. 
offers--only the U.N. offers unique legitimacy.
    Well, yes, it offers something unique. I mean, this is an 
organization where Libya is chairing the Commission for Human 
Rights and where Syria chaired the Security Council. It is a 
fact that the U.N. has failed time and again, failed time and 
again to act against aggression at times, often in fact siding 
with the aggressors.
    And the reason that is the case is something that was seen 
over 2 centuries ago by a great thinker like Immanuel Kant. He 
said that an amalgamation of dictatorships and democracies 
together would not protect peace, because dictatorships tend 
toward war and only democracies tend toward peace, and he was 
right. And the United Nations, unfortunately, is such an 
amalgamation. It failed. It failed in the case of preventing 
Saddam from almost acquiring a nuclear bomb; and when we bombed 
that, the U.N. attacked us.
    By the way, I said that the entire world condemned us, but 
that is not exactly true. Because I am told that sort of in the 
bowels of some of the main security organizations of the U.S. 
Government, they were following this when we struck at Osirak. 
And at the time Saddam was calling--he never used the name 
``Israel.'' He always said the Zionist entity. I think the 
movie Raiders of the Lost Arc or, sorry, the Empire Strikes 
Back was making its heyday then.
    So, anyway, when they heard that Israel had struck at Iraq, 
they said, hooray, the entity strikes back. But, nevertheless, 
the formal position of the United States, the formal position 
of the U.N. condemned Israel, was about to place sanctions on 
Israel. So the U.N. in this case and in many cases simply has 
not been able to overcome the debilitating weaknesses inside 
it, notwithstanding the goals and ideals of the charter, hobble 
its ability to be effective in stopping aggression.
    Aggression has been stopped in the last 100 years not by 
the U.N. and not by the League of Nations, its predecessor. It 
simply crumbled and died effectively in the mid-1930's, unable 
to stop the totalitarian aggression. Aggression has been 
stopped only when the key democratic countries were able and 
willing to act. When they were unable and unwilling to act, no 
international structure was sufficient. That happened in the 
first half of the 20th century. It must not be allowed to 
happen in the first half of the 21st century.
    I think we are fortunate to have the United States, whose 
people and leadership and, I think, a broad spread of 
leadership, a bipartisan leadership, understand that this 
aggression has to be stopped and stopped in time.
    Ms. Watson. May I just followup with this last--one last 
question?
    Mr. Burton. Well, OK.
    Ms. Watson. So that I might quote you accurately, are you 
saying that we are to circumvent the United Nations and not 
seek a legitimate process through the United Nations but that 
the United States needs to go it alone? I just want you to 
clarify what you are saying.
    Mr. Netanyahu. Yes. I am saying that you can seek U.N. 
support, and it would be good to have it, but I wouldn't make a 
precondition of eliminating Saddam's regime before it acquires 
nuclear weapons. Because if you make it a condition, you will 
never reach it.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I appreciate your very 
generous 5-minute rule here.
    Mr. Netanyahu. Is the 5-minute rule on you or on me? I am 
sorry.
    Mr. Shays. No----
    Mr. Burton. He is taking a little poke at the chairman, but 
that is all right.
    Mr. Shays. No, no, I am not taking a poke. I am just trying 
to condition for the fact that I may take 10 minutes instead of 
5.
    I want to first say to you, Mr. Netanyahu, you had been 
warning the world, not just the United States, about terrorism 
for decades. You have had a lonely journey, not unlike 
Churchill, frankly, in the 1930's. I happen to think that you 
are dead on, and it is a privilege to be able to ask you some 
questions, but I have a number----
    Mr. Netanyahu. Thank you.
    Mr. Shays [continuing]. But I first wanted to make a 
statement.
    We knew that Saddam Hussein had a robust chemical, 
biological and nuclear program before the war in the Gulf. We 
knew he had it after. And we knew that he kicked out the 
inspectors when we were successfully dismantling his chemical, 
biological and nuclear program. We know that for a fact.
    We also know that he had a delivery system for chemical and 
biological agents; and while that was more quiet in the past, 
it is now very clearly public information.
    So I am left with drawing this conclusion: Why would the 
burden have to be on those who say that he is still continuing 
these programs? Why shouldn't the burden be on those who claim 
that he has stopped? Because no one can give me even a 
scintilla of possibility that he has changed his mind-set and 
changed his ways. I would love a short answer to that, because 
I have some followups.
    Mr. Netanyahu. I have nothing to add to your very acute 
reasoning here, but I do want to say that the last point, one 
of the points, if we are connecting the dots, is that 
intelligence, including from defectors who say exactly what you 
are saying, that he is absolutely committed, pushing with all 
of his power, to develop these weapons. So you must ask, OK, if 
we want to take Newtonian physics, if an object is moving in a 
certain direction with a certain momentum, there has to be 
something that will make him change his mind. What is it? The 
kicking out of the monitors? No.
    Mr. Shays. Let me ask you this. In 1981 I was a State 
legislator. I was frankly shocked that there was a preemptive 
strike. I voiced my concern as a State legislator. Not that it 
mattered much, but I just--when the press asked me, I said I am 
shocked by it.
    One of my first briefings when I got elected in 1987 was my 
interest in understanding that raid; and after our people 
described it to me, I figuratively got down on my knees and 
said, why didn't we congratulate and thank them for doing it? 
This gets into this whole issue then--in other words, Israel. 
This gets into this whole issue of preemption.
    We knew that we had an ally, the Soviet Union, who became 
our enemy, socially, politically, economically and militarily. 
We developed--we knew what the threat was. We developed a 
strategy, and it was reactive, it was containment, reactive, 
mutually assured destruction. Now that went out--clearly went 
out the window on September 11th. I mean, that was the one 
question that I didn't have an answer to. There was no red 
line. That is what we learned from the terrorists.
    Now, it strikes me that we have to know the threat, as all 
three commissions have told us, we have to have a strategy, and 
then we reorganize.
    I don't see how we can come to any other conclusion that 
the strategy has to be preemptive. And I would say to my 
colleague, the Ambassador, who I understand where she is coming 
from, but it strikes me--and I was surprised by my own majority 
leader being surprised that we can't do preemptive. What other 
choice is there in combating terrorism if it is not preemptive?
    And I will just qualify it with one other point, color it 
in a little bit.
    At that very table we had a noted scientist who said his 
biggest fear was that a small group of dedicated scientists 
could create a biological agent, an altered biological agent 
that would wipe out humanity as we know it. We were all struck 
with the fact that if a country allows that to happen, what are 
we going to do? Just wait until it happens? It has to be 
preemptive. Is there any other choice but preemptive?
    Mr. Netanyahu. I think not, but I think that there are two, 
three reasons why that is the case.
    The first reason is that you have now--when you have--here 
is the situation where you have to go through and oust the 
regime, as opposed to deter it. One, you may have a regime that 
is not deterable. For example, if it has a penchant for 
suicide, you cannot rely on deterrence, because if the regime 
is willing to die a collective death for the glory of their 
twisted version of Islam, it is not going to work. Or if there 
are people within it who are moving in that direction, 
deterrence may not necessarily work.
    The second is a regime that knows no limits to the use of 
force, that it simply completely is committed to that force. A 
good example of that is the Nazi regime. No matter what you did 
to it, as long as it lived, as long as Hitler breathed, as long 
as that clique was there, it simply would not stop. You had to 
oust it.
    And the third situation where you must change the regime is 
that, if you don't, you cannot begin to effect a societal 
change.
    I think the removal of the dangers--I don't think you can 
rely on deterrence when it comes to most of the terror network. 
I think this is what distinguished it from, say, the 
Communists. You know, the Communists, you could deter them. It 
was very easy. They were very rational. I don't think they were 
pursuing any rational goal, but they pursued it rationally. Any 
time they had to choose between their ideology and their 
survival, they chose their survival. They backed up--Berlin, 
whatever, Cuba.
    The ability of Islam is that you cannot rely on that they 
will make that decision, because they will go down with the 
ship. They have no compunction of killing people on this side 
of the aisle but also quite a few of their own. You never heard 
of a Communist suicide bomber, but militant Islam produces 
hordes of them. So when you have a regime system that is not 
susceptible to deterrence, you have no choice but to take it 
out.
    But what does ``taking it out'' mean? It means--and this 
is, I think, my answer to you, Congressman Shays. It means that 
you cannot just have regime removal. You really have to have 
regime change in the fundamental meaning of that word. You 
really have to start changing the mentality, the poison, 
toxified mentality that these regimes have put into the minds 
of millions, hundreds of millions, and that is the real task, 
the great challenge. Now, if you don't, then it is a question 
of time where you will have suitcase devices of mass death. You 
can have biological devices, you can have nuclear devices. It 
is just a question of time.
    So the ultimate protection--and I come back to the example 
of Germany. The ultimate protection that you won't have it, 
that you won't have a new Hitlerism, is the ventilation of 
German society by democracy. The long-term protection--and it 
is not foolproof, but we have to try--is, once the regimes are 
ousted, it is to begin the process of democratization in these 
places which harbor this militancy today.
    Mr. Shays. Let me just ask in one other area here, and it 
does strike me that, based on your testimony, that preemption 
is required somewhere, but if you have a preemptive strike in 
one place, it may not--it may result in not needing a 
preemptive strike elsewhere.
    But I want to ask you about Abu Nidal in Baghdad. I am 
struck by the fact that, in a sense, Saddam was trying to 
destroy the evidence. I mean, he is one of the most vicious 
terrorists, and I am struck by the fact that Osama bin Laden, 
what he did was he united terrorists. There wasn't just one 
type of terrorist from one country in Afghanistan. He brought 
them all together. There was a network. I am just interested to 
know your feeling about that so-called suicide. Is it possible 
that Saddam was basically trying to destroy any evidence? That, 
somehow, he is protecting terrorists and giving us then 
legitimacy in going in?
    Mr. Netanyahu. It is possible, but I can't tell you about 
that specific case. But I can tell you that the terrorists and 
the terror regimes, they are all--they are all connected, 
sometimes loosely, sometimes tightly. For example, you know 
that Osama bin Laden, first of all, enjoyed a domicile in 
Afghanistan. Actually, they moved from the Sudan to 
Afghanistan. He has to have a place. Once he had that place, he 
moved from there, for example, to Lebanon where he had meetings 
with Hezbollah who were tied in with Palestinian terrorists. So 
bin Laden was trying to penetrate our area as well as through 
Hezbollah, other areas.
    Mr. Shays. So the key point is he had a network and he was 
kind of the president.
    Mr. Netanyahu. Yes, but the key point is this. I don't care 
how many networks he has. If he doesn't have regimes that give 
him an inviolable place where he doesn't have to run and hide 
all the time, his effectiveness goes down the tubes very fast. 
That is the key thing. If you take away the sovereign states, 
you bring down--you just bring down this whole structure of 
international terrorism.
    But what you don't know is you cannot prevent the 
reemergence of this madness 20 years or 30 years or 15 years 
from now. The only way you can do that is by making sure that 
when you bring down the regime, instead of replacing one 
dictator with another, you begin a different process that is 
distinguished around the world everywhere, except up there, 
everywhere you have democracy sweeping the world, everywhere 
you have the United States pressing for democratization.
    It has been a spectacular success. I mean, the whole world 
is democratized. You have democratized Latin America, and if 
anyone veers there, you go down gangsters on them. Russia is 
democratized. You are seeking human rights and democratization 
in China, South Africa, Mongolia, Albania. Everybody is 
democratizing, except this one area. This one area remains, and 
it is a big one, with these poisonous regimes in there, remains 
untouched. And in the gurgly caldron of this mad zealotry are 
brewing the new bin Ladens, the new suicide bombers from the 
Arafats and the Talibans and the bin Ladens of this world.
    You can't leave it that way. You can't just go into the 
caldron, pick up the Taliban and throw him out and get a new 
one. You have to turn over the pot. You have to do something 
else. You have to start a different process.
    Mr. Shays. Thank you.
    Mr. Burton. Thank you, Mr. Shays.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Prime Minister, we have known each other for many 
years; and I have always held you in the highest regard and 
with great respect and admired your eloquence and with none 
more so than on the two occasions you appeared before this 
committee--today and then right after September 11th. And at 
your last appearance, you articulated the empathy and the 
solidarity with the United States as a fellow victim of 
terrorism, because Israel has been suffering from terrorist 
attacks before September 11th and even more since September 
11th.
    So the United States and Israel share not only that, but 
the reason we share that is we share values of democracy, of 
pluralism, of respect for individual rights, and so your 
enemies are our enemies and our enemies are also your enemies.
    Today we are talking about Saddam Hussein not just here, 
but the President of the United States before the United 
Nations. And he has said to the United Nations, as an 
international body, isn't it their obligation, he has said, to 
enforce the rules and resolutions that they have adopted that 
have been flaunted by Saddam Hussein? Now, I certainly hope 
that the United Nations wouldn't hobble themselves and live up 
to the responsibility that they have to insist--in fact, 
demand--that Saddam Hussein open up his country to full, 
unfettered inspections and end any kind of weapons that he 
might have.
    The question I want to ask you is, is there a value as you 
see it from an Israeli perspective for the U.N. to act in 
concert with the United States in going against Saddam Hussein, 
one, to stop what he is doing to develop these weapons? And, 
second, should there have to be a military action to rebuild 
Iraq after Saddam Hussein?
    Mr. Netanyahu. Congressman Waxman, there would be much 
value if you could rely on it. I don't want to pull rank, but I 
spent 4 years in the U.N. and a hell of a lot of time on the 
Security Council, and I cannot tell you that this is 
necessarily a bastion of responsibility. On occasion, not very 
frequent, the U.N. does the right thing, but on many occasions, 
it does the wrong thing. This is an organization that branded 
Zionism as racism. You know, it is what Abba Eban once said, 
that, you know, that if the Arab countries put before the U.N. 
a resolution that the earth is flat, it will be passed by the 
U.N. That problem of inconsistency is what plagues this issue.
    Now you have a question, I think a different question: Is 
it desirable to get U.N. support? The answer is, absolutely 
yes. The question I put forward is, is it a precondition for 
such action? Suppose you try, you give it some time, it doesn't 
happen. What do you do then?
    Now, there are two ways of trying. One is you talk to them. 
They either do it or they do not do it. The other is you 
actually try to press forward a resolution and somebody, one of 
the permanent members, vetoes it and maybe passes another 
resolution. So now you may be actually working against a failed 
resolution or even an antagonistic resolution of the U.N. Well, 
an antagonistic resolution, one of those you could always block 
at the Security Council, but a failed resolution is different.
    Mr. Waxman. I want to certainly say that if the United 
Nations doesn't live up to its responsibilities, that shouldn't 
preclude the United States from living up to its 
responsibilities.
    Mr. Netanyahu. I fully agree with you.
    Mr. Waxman. And then the question is, what actions we 
should take; and the President has argued that we need a regime 
change in Iraq because Saddam is clear in his motives to want 
to dominate the Middle East and particularly the oil wealth by 
virtue of having a nuclear bomb which he is actively working to 
achieve.
    Now you said one of the reasons Israel is so concerned 
about all of this is there are things that happen if you do 
take action and things that happen if you don't. Israel, 
everyone expects, will be the victim of Saddam Hussein's last 
gasp to stay in power, and you argue that the United States 
should be working with Israel to deal with that circumstance 
should it happen.
    I absolutely agree that it is essential that the United 
States and Israel work closely in concert, as we have in the 
past and as we need to in the future, to deal with terrorism 
and, God forbid, any kind of use of weapons of mass destruction 
short of nuclear weapons by Saddam Hussein. But let me examine 
a couple of things that have been thrown out in the debate here 
in the United States.
    Some people have said if we go after Saddam Hussein, it is 
diverting us from the war on terrorism. How do you answer that?
    Mr. Netanyahu. I don't think so. I think it helps you 
enormously, because in the mind-set of the terrorists and the 
people they wish to recruit, there is a common front, as I 
said, of a handful of states and actually not a much larger 
number of organizations. So if you start taking them one by 
one, taking them on, deterring some, destroying others, you are 
sending a message to the entire terror network.
    I would put it just as a victory for terrorism anywhere in 
any part of the terror network emboldens the entire terror 
network. A defeat of any part of the terror network discourages 
the terror network and makes it lose its head of steam. It is 
exactly opposite the advice that I suppose you are hearing from 
some that, if you take action, you will inflame more militancy 
and more terrorism.
    My experience has been the exact opposite, the exact 
opposite. You might have an exchange for a while of blows and 
counterblows, but if you are persistent and you are applying 
your power concertedly and consistently, you will douse the 
flames. Is douse to dampen?
    Mr. Waxman. Yes.
    Mr. Netanyahu. All right. You will douse the flames.
    My English is rusty, you know, Henry.
    Mr. Waxman. Let me ask you another question that has been 
talked about, this doctrine of preemptive action.
    Some people have said preemptive action is appropriate if 
there is an imminent threat, but the President today said of 
the United States that he is worried about the gathering 
danger. He didn't say an imminent threat, but the gathering 
danger.
    Now, how do we decide when preemptive action is 
appropriate? Saddam Hussein is working on weapons of mass 
destruction. So is Iran. Syria is much more active in helping 
Hezbollah and Hamas as part of the terrorist network. Do we 
follow this doctrine of preemptive action beyond Saddam 
Hussein? Do all of these countries merit preemptive action by 
us, and how do we distinguish?
    Mr. Netanyahu. Probably not. Not because they don't merit 
it in moral terms, but because you wouldn't need it. I think 
the first question you ask is, how limited is it? Do you want 
to wait and find out? The answer is no. You had what I called 
here the wake-up call from hell, but you don't have to wait 
until hell rushes you and meets you in the face. It already 
has, in effect. So on the question of time, I think the sooner, 
the better.
    But now the question is, when you choose a target, I think 
Iraq brings two things, a confluence of two things. One, it is 
sufficiently important in this network to have a tremendous 
effect. If it collapses, it will have a beneficial seismic 
effect, quite the contrary of what is being described. And the 
second thing is that it happens to be one of the two and now, 
as we have learned, one of the three regimes that is racing to 
build nuclear weapons. So you get two birds with one stone. You 
knock out a main developer of nuclear arms in the tyranny work 
and you also send reverberations across the network.
    So if I had to choose, yes, I would choose that. Is Iran 
less dangerous? No. Is it more dangerous? Maybe. Certainly not 
less dangerous. But would I counsel necessarily a preemptive 
strike to Iran? I am not sure. I would be very careful about 
that. I think that there is a great deal of possibility of 
internal processes of change in Iran that simply do not exist 
in Saddam Hussein.
    Do you remember that at the end of the Gulf war there was 
an assumption within certain corners of the American government 
that having been dealt this blow, without regime change, 
without bringing him down, that there would be an internal 
revolt, so to speak, in Iraq? But this was wishful thinking, 
because Iraq simply--it is a police state without any ability 
to foment the kind of process that occurred in fact in Iran and 
the downfall of the Shah.
    Iran has that ability and, therefore, you shouldn't apply 
force--I will say this: You shouldn't apply force 
indiscriminately, and certainly for the application of force, 
against Palestinian terrorism, against Iraq and so on, but I 
think that force should be applied judiciously. That is, it 
should be applied with great resolution, with great force, but 
at that part of the front, so to speak, where you will get 
maximum effect; and I think this is the case with Iraq. This is 
why the relevant question is not whether the others merit 
punishment but where the application of force will do the most 
good, and that is what I think we are discussing here.
    Mr. Waxman. Thank you very much. You have given us 
testimony that will help us think through these very difficult 
issues; and it has been very, very helpful.
    Mr. Netanyahu. Thank you very much.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    It is a pleasure to see you again, Mr. Prime Minister.
    Mr. Netanyahu. Thank you.
    Mr. Lantos. My colleagues have raised many of the issues 
that I wanted to raise, but I would like to go at them in a 
somewhat different way, so if you will bear with me, and I will 
be happy with whatever length of response you give me.
    Much of this debate in Europe, the United Nations and, to 
some extent, in this country about Saddam Hussein has the 
quality of people discussing the merits of an abstract 
painting. You like it, I don't like it, this is what I like, 
this is what I don't like about it. I find this extremely 
disturbing because, obviously, with vis-a-vis Saddam Hussein, 
we are looking at a record, his historic record, which there is 
no point repeating, because we are all aware of it: what he did 
to his own people, what he did in the beginning of the war 
against Iran in which hundreds of thousands on both sides died, 
the gassing of his own people, the attack on Kuwait, the 
attempted assassination of our own former President, the list 
is long.
    But every one of us in this body, every one of us in the 
public arena who deal with foreign affairs also brings a 
record.
    Now, I was intrigued by your discussion with Mr. Shays 
concerning preemption; and I am delighted to tell my good 
friend who joined this body many years after I did that when 
your air force took out the Iraqi nuclear reactor at Osirak the 
following day I gave a floor speech in the Congress commending 
that action. Because it was self-evident that, without 
preemption, Iraq would have proceeded with a program of 
developing nuclear weapons, and the Persian Gulf war could have 
turned out quite differently, because the civilized world could 
well have faced a nuclear-equipped Iraq and might not have been 
willing to undertake a war against a nuclear-equipped Iraq.
    So it seems to me that the President's speech today at the 
United Nations--and I don't know if you have had a chance to 
see it or read it--was right on target, and I think the enemies 
of the United States would be well-advised to understand that 
there is enormous bipartisan support for the President's 
position vis-a-vis Iraq. And when the President comes before us 
within the next few weeks or months with a proposal to obtain 
congressional approval, while he is unlikely to get the almost 
unanimous approval that he got against the war on terrorism a 
year ago--my friend and colleague Henry Hyde and I sat in the 
manager's chair for 9\1/2\ hours because everybody wanted to 
speak on this issue. We had one negative vote. We are likely to 
have more negative votes than one--but there is little doubt in 
my mind that there will be overwhelming bipartisan, bicameral 
approval when the proposal comes before us.
    Now, one of the many criticisms of the concept of 
preemption stems from our rather naive historic imagery of 
chivalry as part and parcel of military activities. Some people 
still feel that chivalry is not dead, that Saddam Hussein will 
act according to the appropriate rules and procedures, and it 
is so self-evident to even the most superficial observer of 
recent history that it is only his capability or lack of it 
which prevents him from striking out with whatever force he 
has. So the notion of preemption is not just an option, it is 
mandated by the nature of this new enemy. This is a new kind of 
enemy, and to apply the rules of 17th century chivalry to the 
regime of Saddam Hussein to me appears to be absurd.
    I would like to ask you to comment, if you would, about the 
public views and private views of many Arab leaders that has 
been commented on in the media, but perhaps those of us who 
occasionally or frequently meet with Arab leaders are 
personally exposed to this profound dichotomy, a totally 
different private view of a possible strike against Iraq and an 
utterly divergent public view.
    First of all, do you agree that is, in fact, what is 
happening, that many of the Arab leaders are really telling 
totally different stories in private and in public? In private, 
they are saying, go to it, we can hardly wait to get rid of 
him, we will be supportive in whatever way we can, but publicly 
denouncing this possible action.
    The second thing I would be grateful if you could comment 
on is a chronological question. Some of the opponents of regime 
change in Iraq argue that it may not be too difficult to change 
the regime in Iraq in a military sense, not a cake walk but not 
overwhelmingly difficult, but that what comes after it we have 
no idea about, and how long we may have to stay there, nobody 
knows. I am puzzled by these objections, because when North 
Korea attacked South Korea and almost took over the whole 
country, the South Koreans were able to maintain a small 
perimeter around this port city of Pusan, and now we are back 
to the 30th parallel. We have been there for almost a half a 
century.
    The question to be asked is, would we prefer a Communist 
North Korea regime-controlled Korean peninsula to this very 
long-term commitment that we had to make? It is costly, it is 
cumbersome, we don't like it, but it seems to me that it is 
infinitely preferable to have at least half of the peninsula 
today free and open and democratic and pro-western than to have 
the regime in the north run this whole Korean peninsula.
    My view is that whether we are talking about the cold war, 
which lasted two generations, our military involvement in 
Korea, which is now into its third generation, and long-term, 
rational commitments of our resources, preferable to accepting 
extreme fanatical, irrational regimes, developing weapons of 
mass destruction as the alternative?
    Mr. Netanyahu. The answer to your second question is 
clearly that I agree with you. I think--imagine--we know what 
is happening in that half of the Korean peninsula, because this 
regime that is at a starvation level, probably the lowest GDP 
per capita on earth, is busy developing nuclear weapons and 
missiles and then exporting it to the other terror regimes. So 
there is something developing, Congressman Lantos, which I 
think is certainly developed in my thinking.
    I am a Kantian, as you can see by my references to Kant, 
and Kant basically said 200 years ago that the way to secure 
world peace--in his great essay that he wrote, Perpetual Peace, 
he said the only way to do it is to distinguish between 
democracies and dictatorships. Understand that whereas 
democracies tend toward peace because they reflect the will of 
the majority, dictatorships tend toward war, because a dictator 
gets to be a dictator by practicing aggression toward his own 
people, so he will do it to others, too.
    Kant said basically that the only way you could have peace 
with dictatorships--he said peace with democracy is automatic 
and self-sustaining, but peace with dictatorships can be 
purchased, he said, by deterrence, deterrence not by the United 
Nations, but what he called the League of Free Nations, which 
means the democracies banding together to deter aggression or 
roll it back if deterrence failed, which is essentially NATO.
    What didn't happen opposite Germany happened vis-a-vis a 
far greater dictatorship of a much more powerful dictatorship 
of Soviet Russia and it worked, a cold peace. We called it the 
cold war, but it was a cold peace, a peace of deterrence.
    I have come to the conclusion that, faced with these types 
of regimes who may be undeterable, there really is, in the long 
run, only one kind of peace; that is the peace of democracies 
or, if you will, the peace of democratization. Because if you 
have these territories in which madness rules, in which they 
develop botulisms that they will put in Manhattan or Washington 
or suitcase nuclear devices that will detonate in the cities of 
the West, that you not only have to preempt and oust these 
regimes but you really have to begin this process of 
democratization.
    So I think Kant was right for 2 centuries, but I think in 
the 21st century we may have to go back to a democratic peace, 
period.
    I think this relates to your question, are we willing to 
pay the price? Well, I think freedom has its price, and our 
security has its price. I tend to think that the American 
people--I tend to agree with you from my visits to the United 
States and even my talk in the corridors of Congress, I think 
there is a solid majority who understand that action must be 
taken, sometimes with a shorter time horizon, sometimes with a 
longer time horizon, both going back and going forward on the 
need to secure our world. But I think that, yes, you have to 
pay the price for freedom.
    On the question of the private and public opinions of Arab 
leaders, it is well-known that not only on this issue but on 
many issues there is a divergence, simply because there isn't 
pluralism in Arab public political life. There is a party line 
that is enhanced and enforced by a collection of dictatorships, 
usually, and so people don't deviate from it.
    In the case, however, of Saddam, I see the following. I see 
something somewhat different than this dualism. In 1991, there 
was practical Arab unanimity on the need to roll back Saddam 
from Kuwait. Saddam had devoured an Arab country, and every 
country thought it would be his next target. Therefore, they 
proceeded to support the extradition of Kuwait from Iraq's 
gullet, and there was perfect unanimity and even public 
unanimity in the presence of Arab countries in the coalition.
    A decade later, you see something else. Some of them--and 
the more democratized, the more liberal these leaders are--want 
to see Saddam go. Some of them may be even his closest 
neighbors, but they won't say it openly. But others, many 
others, fear that if Saddam goes then he will be replaced. That 
regime will begin a regime change in the broader sense of the 
word; that is, the process of democratization in the Arab 
world. That is why you are getting a much broader consensus, 
not uniform and not totally private but pretty broad and 
private, against an American action, because the regimes 
themselves are fearful of the dynamic of freedom.
    Again, this doesn't apply to all of them. Some of them are 
much closer to liberalizing their societies than others. But I 
think this is a dynamic that now occurs.
    In any case, if I had--you know, asking for an Arab 
consensus, public or any other type, before you take on Saddam 
is actually a little worse than waiting for a U.N. consensus. 
Actually, it is a lot worse, and some things you just do the 
right thing, and I think America is about to do the right 
thing.
    Mr. Lantos. Thank you very much.
    Mr. Shays [presiding]. Thank you Mr. Netanyahu. Do you have 
time for a few more questions?
    Mr. Netanyahu. I have all the time in the world, Mr. 
Chairman.
    Mr. Shays. Thank you. I do want to say that the Chairman 
was very sorry that he did have to leave and was grateful that 
you were willing to spend your day or afternoon with this 
committee and he wanted me to convey that.
    You had mentioned that it would be our responsibility to--
Israel would clearly become the target if there was a 
preemptive strike against Iraq. I have a sense that if the 
United States and others were able to push the border of his 
activity closer to Baghdad that most of the missiles would not 
reach Israel, but the point you made was that we would need to 
help you acquire smallpox and immunize your population. I think 
you made reference to that. And I am curious how long it would 
take to do that.
    Mr. Netanyahu. It does not take very long. I don't want to 
get into these discussions. I will just tell you that, for 
example, the cost of a vaccination against smallpox, which is 
what we are really talking about, the cheap one costs 20 cents 
and the expensive one costs $1.
    Well, you know, we have 6 million citizens in Israel. Not a 
huge cost. And I think we are well underway to produce this. 
But I am saying--I don't want to get into the intricacies, 
Congressman Shays, of the precise way of allocating vaccines 
and other devices, but I want to say and I do want to stress 
the principle once again, and I thank you for again bringing it 
up, I think it is absolutely essential that the United States 
and Israel see to it that Israel has all the means of civil 
defense available in today's world before that action is 
initiated. If not, then the risk that we are taking will be an 
undue risk.
    I do not represent the government. The government, I don't 
know if it even takes a formal position, but I do talk to an 
awful lot of Israelis across the board. And I think they would, 
if they were here, approximate--and if I can speak for so many 
people who actually agree with me, they would say, yes, we want 
Saddam's regime taken out; yes, we are prepared to take the 
risk; but no, we are not prepared to take a risk that has not 
been reduced to its barest minimum.
    And it is not difficult to see that all of these means of 
civil defense are available. That is as important a 
responsibility of the United States as it is of Israel because, 
after all, Israel will be the first one attacked.
    Mr. Shays. Israel has been fighting terrorism for 50 years, 
and you clearly have learned a long time ago there is no good 
terrorist. It has been amazing, the thought that your country 
has put into this effort, and we are learning a great deal from 
you.
    The chairman did want some questions about Saudi Arabia. It 
has never come up in any dialog. I don't think you brought it 
up, and I am curious why it has not kind of shown.
    Mr. Netanyahu. I thought I was talking about Saudi Arabia 
all the time, Mr. Shays. I think that Saudi Arabia is one of 
those cases of a regime that at once has fueled terrorism and 
at the same time has espoused a relationship with the United 
States. It has fueled terrorism by funding terrorists, 
including al Qaeda received a lot of Saudi money in the early 
nineties. But it is now fueling Palestinian terrorism by 
offering a graduated remuneration system for suicide bombers. 
Saudis pay the families. That is as big as stimulus as you 
can--incentive for the suicide bombing. The disincentive is 
that the family is actually worse off. And if you had an 
incentive that the family benefits from Saudi money, you are 
actually stimulating terrorism.
    So Saudi Arabia has been doing that, and it has also been 
unfortunately fomenting inside Saudi Arabia and outside Saudi 
Arabia, the Wahhabist creed that is I think a particularly 
insidious form of militant Islam. At the same time, Saudi 
Arabia, at least on the diplomatic level, claims to be a friend 
of the United States. I think the way to handle that is to say 
to the Saudis something that President Bush had outlined in one 
of his speeches. He said, ``All nations will have to choose. 
You are either with us or against us in this battle.'' And I 
think the Saudis should be held accountable to that. I think 
they should be pressed as forcefully as possible to cease and 
desist those things that promote militancy and terror, and I 
think you should hold them to it.
    Mr. Shays. Is it your view that the Hamas and the Hezbollah 
on occasion work together?
    Mr. Netanyahu. That the Hamas and Hezbollah--absolutely. We 
know they cooperate.
    Mr. Shays. Funded primarily by the Iranians and Syrians?
    Mr. Netanyahu. Funded by Iran, the Hezbollah is operating 
with the compliance of Syria on Syrian-controlled soil in 
Lebanon. Syria also enables Iran to land planes in Damascus 
airport, stockpiled with rockets, rockets aimed at our cities, 
and other weaponry to go through Syrian territory and Syrian-
controlled territory in Lebanon to reach the Hezbollah.
    Hezbollah is a perfect example of the terrorist network. 
You have two terrorist regimes cooperating with one another, 
fielding a third terror organization that has links to about, 
oh, about a dozen directly--links to about a dozen of the two 
dozen or so terror organizations. Direct links, so everybody is 
connected in concentric circles.
    Mr. Shays. If you could sort this out for me, though, I was 
trying to allude to it at the end when my time was really 
running out. I thought--not to put a nice word next to horrific 
people--but I gave the al Qaeda and Osama bin Laden credit for 
doing something that has not happened in the past, and that is 
basically to unite a world organization of terrorism, schooled 
at the university in Afghanistan. But whether they were from 
Indonesia, Malaysia, they train in Kosovo, in Chechnya, that 
come back--what I am struck with is that it strikes me that--
there is really no good terrorist--that they interact. That if 
a nation like Iraq is having Abu Nidal as a resident, 
protected, that is a very strong case for the fact that this is 
in fact a terrorist nation interacting with the rest of the 
world in this fight against the West.
    And I guess I would like you to tell me why we cannot hold 
accountable the people that Saddam Hussein houses and allows to 
live in his country, why we can't make the very strong claim 
that he is a part of al Qaeda and the whole organizational 
process.
    Mr. Netanyahu. Well, he provides safe haven to Abu Nidal 
and others who practice terrorism. And without safe haven, 
there is no terrorism. Syria does the same. There are more than 
a dozen terrorist groups that have official addresses in 
Damascus. It is the same system. And I think that obviously 
right now he is very careful. He would be very careful right 
now. He is under the gun. He understands that his days appear 
to be numbered, so he will make all the noises and he will make 
all the gestures to say that he is abandoning it and finished 
with it and so on; all the while trying in his basement, the 
basement of his 50 palaces, to develop the bomb. If he gets 
away with that, then he will treat you and us and everyone very 
differently.
    By the way, I should say that within the constituent parts 
of the terror networks, both the regimes and the organizations, 
there is cooperation and harmony but there is also competition. 
Everyone wants to be the king of the militant Islamic heap. 
They all want to be on the top. The new Saladins or the new 
Nassers. And Osama bin Laden wants to be the ultimate grand 
maestro of terrorism. And I must say that he has capabilities, 
unfortunately, or has talents that put him close to the top. 
They all want to be the linchpins, they all want to be the 
crucial one that connects, unites, and commands all the rest. 
But effectively what they do is cooperate with one another.
    And unless you dismantle this system in its entirety--if 
you leave any part of it intact it will grow, it will grow 
back. It is like a malignant growth. You have to get rid of the 
system. And I think we are getting close to getting rid of the 
system.
    Mr. Shays. We are about to adjourn. Is there anything else 
that you want to put on this Congressional Record?
    Mr. Netanyahu. I want to thank you and Mr. Shays and 
Congressman Burton and, first of all, thank Congressman Lantos 
for the degree of his patience and also for all of your 
discerning comments. I think that today was another expression 
of the strength of this country and the strength of democracy. 
Nations, democracies, do not go to war easily and they usually 
debate and argue before they do.
    Sometimes they have to be bombed into going to war. In 
fact, that is what happened in World War II. All of Europe had 
been conquered. America was actually bombed in Pearl Harbor and 
was--and that was a pivotal event that opened the eyes of 
Americans, and once their eyes were opened they gathered the 
power that is available in this great free Nation, and the 
result was preordained.
    I think in a similar way, the bombing of September 11th 
opened the eyes of Americans to see the great conflict and the 
great dirge that face us; and once opened, and the overpowering 
will of the majority of the people of the United States, of the 
steamroller that is inexorably moving to decide this battle.
    I think this was called by Congressman Lantos ``the hinge 
of history,'' and it is exactly that. It is the hinge of 
history. And 1 year later, I can come in and say that history 
is moving in the right direction. That had America not woken 
up, had America not mobilized his action, had it not--if it had 
not had the courageous leadership of President Bush, then I 
would not be able to say that I am confident today.
    But I am saying that I believe that the war on terror is 
going in the right direction and that I am confident that if we 
pursue this direction, then we will achieve victory. And 
victory is victory for America and victory for Israel and 
victory for Britain; victory for all the democracies, however 
vacillating and however reluctant their governments are. This 
is a victory for all free societies, and I am sure it will be 
achieved. Thank you.
    Mr. Shays. I would just conclude by saying it is going to 
be a very interesting debate, because even in my district, the 
phone calls against preemptive action are basically 40 to 1 
against it. So it is going to be interesting to see how this 
plays out.
    And just on a lighter note, you mentioned television; and 
one of your colleagues, Foreign Minister Perez, said 
``Television makes dictators impossible.'' And then he went on 
to say, ``It makes democracy intolerable.''
    Mr. Netanyahu. I would agree with that part of Mr. Perez's 
statement.
    Mr. Shays. Have a good day, thank you for coming. This 
hearing is adjourned.
    Mr. Netanyahu. Thank you very much.
    [Whereupon, at 4:40 p.m., the committee was adjourned.]


</pre></body></html>
